<html>
<title> - INDEPENDENT LIVING PROGRAM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                       INDEPENDENT LIVING PROGRAM

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2008

                               __________

                           Serial No. 110-97

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                   U.S. GOVERNMENT PRINTING OFFICE
43-999 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001









                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
PHIL HARE, Illinois                  GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio               STEVE SCALISE, Louisiana
TIMOTHY J. WALZ, Minnesota
DONALD J. CAZAYOUX, JR., Louisiana

                   Malcom A. Shorter, Staff Director

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas, Ranking
JERRY MCNERNEY, California           JERRY MORAN, Kansas
JOHN J. HALL, New York               STEVE SCALISE, Louisiana

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.










                            C O N T E N T S

                               __________

                             July 10, 2008

                                                                   Page
Independent Living Program.......................................     1

                           OPENING STATEMENTS

Hon. John J. Hall................................................     1
    Chairwoman Herseth Sandlin, prepared statement of............    33
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    34

                               WITNESSES

U.S. Department of Veterans Affairs, Ruth Fanning, Director, 
  Vocational Rehabilitation and Employment Service, Veterans 
  Benefits Administration........................................    22
    Prepared statement of Ms. Fanning............................    48

                                 ______

American Legion, Mark Walker, Assistant Director, National 
  Economic Commission............................................    15
    Prepared statement of Mr. Walker.............................    44
McCartney, Bruce, Midway, GA.....................................     4
    Prepared statement of Mr. McCartney..........................    34
National Council on Independent Living, John A. Lancaster, 
  Executive Director.............................................     5
    Prepared statement of Mr. Lancaster..........................    40
Paralyzed Veterans of America, Richard Daley, Associate 
  Legislation Director...........................................    14
    Prepared statement of Mr. Daley..............................    42

                       SUBMISSIONS FOR THE RECORD

Disabled American Veterans, Kerry Baker, Associate National 
  Legislative Director, statement................................    52
Maui County Veterans Council, Wailuku, Maui, HI, Rogelio G. 
  Evangelista, President, letter.................................    54
National Rehabilitation and Rediscovery Foundation, Inc., 
  Marianne Talbot, Ph.D., President, statement...................    55

                   MATERIAL SUBMITTED FOR THE RECORD

    Hon. Stephanie Herseth Sandlin, Chairwoman, Subcommittee on 
      Economic Opportunity, Committee on Veterans' Affairs, to 
      Ms. Ruth Fanning, Director, Vocational Rehabilitation and 
      Employment Service, U.S. Department of Veterans Affairs, 
      letter dated July 11, 2008, and VA responses...............    57

 
                       INDEPENDENT LIVING PROGRAM

                              ----------                              


                        THURSDAY, JULY 10, 2008

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 1:17 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.

    Present: Representatives Herseth Sandlin, Hall, Boozman, 
and Scalise.

 OPENING STATEMENT OF CHAIRWOMAN STEPHANIE HERSETH SANDLIN, AS 
                 PRESENTED BY HON. JOHN J. HALL

    Mr. Hall [presiding]. Good afternoon, ladies and gentlemen. 
The Committee on Veterans' Affairs Subcommittee on Economic 
Opportunity hearing on the Independent Living Program (ILP) 
will come to order. First, I will ask you to join me in 
standing and saying the pledge. The flag is at both ends of the 
room.
    [Pledge of Allegiance]
    Mr. Hall. Thank you, and thank you for joining us. Thank 
you for your patience while we were voting. Today's hearing 
will give the Subcommittee the opportunity to learn more about 
the U.S. Department of Veterans Affairs (VA) Vocational 
Rehabilitation and Employment (VR&E) Independent Living Program 
and how it is assisting our veterans in a seamless 
rehabilitation into family and community life. As many of you 
know, the goal of the Independent Living Program is to ensure 
that eligible disabled veterans are able to maintain maximum 
independence in their daily living by developing learned skills 
that may benefit them for future employment.
    Some of our panelists might recall this Subcommittee held 
its first hearing back in March of last year that gave our new 
Members the opportunity to learn about the programs under our 
jurisdiction. One such program that was considered was the 
Vocational Rehabilitation and Employment. But today, we are 
here to specifically review the Independent Living Program.
    As we will hear from our panelists, many of our most 
severely disabled veterans' lives have been profoundly changed 
for the positive as a direct result of these independent living 
(IL) services. Unfortunately, Members of this Subcommittee have 
also heard from veterans that have raised concerns that the VA 
staff is poorly trained to properly refer veterans to available 
resources, mismanagement of claims by VA personnel that cause a 
delay in service, and the need to increase the current 
statutory limit of 2,500 slots annually.
    Earlier this year, we received a letter from a veteran who 
urged the full Committee Chairman to consider reviewing 
independent living services for veterans with chronic and 
severe post traumatic stress disorder (PTSD). Specifically, 
this veteran would like to see an expansion of the independent 
living services to provide Operation Iraqi Freedom (OIF) and 
Operation Enduring Freedom (OEF) veterans with opportunities 
for employment services that can also benefit older veterans 
who have service connected psychiatric disabilities.
    I am interested in hearing from our panelists about this 
and other suggestions to determine how we can best serve all 
our veterans, especially in light of the Department of Veterans 
Affairs Office of Inspector General's report dated December 17, 
2007. A few of the issues of concern raised in this report 
include VR&E rehabilitation rate calculations and information 
on total program participation and outcomes were not fully 
disclosed in the VA Performance and Accountability Report; the 
2,500 statutory cap was underutilized in fiscal year 2006 and 
services to our veterans were delayed; and the VA should 
effectively monitor the number of new independent living 
participants and detailed information should be provided to 
Congress for review. It is very important that we examine these 
concerns, especially at a time when the VA Secretary recognizes 
an increased need for independent living services over the next 
10 years.
    Today's servicemembers are returning with PTSD, traumatic 
brain injury, amputations, and severe burns that would have 
been fatal in previous conflicts. Congress must continue to 
reexamine the development and results of this program to 
provide the best services in a timely manner. The men and women 
who serve our Nation honorably deserve, and should receive, the 
best our country can offer. I look forward to working with 
Chairwoman Herseth Sandlin, Ranking Member Boozman, and other 
Members of this Subcommittee to explore how we can improve the 
VA's Independent Living Program for our servicemembers and 
veterans.
    I now recognize Mr. Boozman for his opening remarks.
    [The prepared statement of Chairwoman Herseth Sandlin 
appears on p. 33.]

              OPENING STATEMENT HON. JOHN BOOZMAN

    Mr. Boozman. Thank you very much, Chairman Hall. I think 
the first order of the day is to thank both members of our 
first panel for their service to their country. I believe both 
Mr. Lancaster and Mr. McCartney are service-disabled veterans 
of the Vietnam War and they honor us with their presence here 
today. So, we really do appreciate you very, very much.
    Chairman Hall, I believe you and I would agree that the 
VA's Vocational Rehabilitation Employment Program should be the 
crown jewel of programs for disabled veterans. The program is 
generous in its benefits and the law provides VR&E staff with 
wide latitude in determining who qualifies for the program. It 
is important to note that employment is the goal of the VR&E 
Program and for the vast majority of those who participate in 
the Program a job is reasonable and achievable.
    Unfortunately for our most severely injured, employment is 
sometimes not an option so the VR&E Program includes 
independent living services for those who cannot work because 
of their service connected disability. Such a program is 
designed to enable such veterans to achieve maximum 
independence in daily living and VA may contract for these 
services with qualified providers. Title 38 defines 
independence and daily living as ``the ability of a veteran, 
without the services of others,'' or ``with the reduced level 
of the services of others, to live and function within such 
veteran's family and community.'' That is a fairly broad 
definition. And I would hope that Ms. Fanning would describe 
how her staff determines what fits within the definition.
    I want to make a point about one way we judge the Program's 
performance. As an example of the difficulty we face in using 
VA data to determine the Program's performance, I would call 
your attention to the latest Veterans Benefits Administration 
(VBA) Annual Benefits Report. On pages 77 to 84, the report 
shows 884 veterans receiving independent living services, and 
on page 86, the data shows 949 participants and 2,957 veterans 
rehabilitated. Clearly the inconsistency between the number of 
participants and the number of those rehabilitated, as well as 
the two different amounts of participants, does not give us a 
clear understanding of how the Program is doing. So I hope that 
we can work together so that we can make the data a little bit 
more understandable for us.
    Finally, I am glad to have Mr. Lancaster, Executive 
Director of the National Counsel on Independent Living with us 
today. I understand that the National Council on Independent 
Living (NCIL) is not represented on the Secretary's Advisory 
Council on Rehab. It seems to me that the NCIL should be a 
member of the Committee because of their broad experience in 
independent living. And I urge Secretary Peake to consider, in 
fact I urge him to invite, NCIL to become an active member in 
his Advisory Committee.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Congressman Boozman appears on
p. 34.]
    Mr. Hall. Thank you, Mr. Boozman. Before I proceed, 
regarding consistency, I just want to mention that, the first 
time I mentioned the 2,500 statutory cap, I mistakenly misspoke 
and said dollars as opposed to people. I intended to say 2,500 
individuals.
    I would like to welcome our panels testifying before our 
Subcommittee today. I remind all of our panelists that your 
complete written statements have been made part of the hearing 
record. Please limit your remarks so that we may have 
sufficient time to provide followup with questions once 
everyone has had the opportunity to provide their testimony.
    Joining us in our first panel is Mr. Bruce McCartney, an 
Army veteran from Midway, Georgia; and Mr. John A. Lancaster, 
Executive Director of the National Council on independent 
living. Mr. McCartney, thank you for your service. Thank you 
for traveling from Georgia to be here with us today. You are 
now recognized for 5 minutes.

    STATEMENTS OF BRUCE McCARTNEY, MIDWAY, GA; AND JOHN A. 
LANCASTER, EXECUTIVE DIRECTOR, NATIONAL COUNCIL ON INDEPENDENT 
                             LIVING

                  STATEMENT OF BRUCE McCARTNEY

    Mr. McCartney. Chairman Hall and Members, on behalf of the 
hundred or so disabled vets who know I am here, and the couple 
hundred thousand who do not, I welcome this invite. My name is 
Bruce McCartney. In 1986, I was medically retired from the 
United States Army under Chapter 61 after 17\1/2\ years of 
active-duty service.
    I served four combat tours in Vietnam as a DUSTOFF and 
ground pounding combat medic. One-thousand four-hundred seven 
boots on the ground days. It was my job to go to the wounded 
soldier who walked into a booby trap or was laced across the 
gut with an AK-47, try to keep him alive until we could get him 
to the hospital. I was not always successful. But more often 
than not, death was cheated of another victim.
    When I came home from Vietnam, there was little help 
available to transition the disabled veteran. One day you are 
in the War, the next day you are back in the world trying to 
regain some semblance of normalcy. If perchance you met or 
heard about a veteran who had acquired a particular VA service 
or program, then you applied. Other than that, there was not 
much assistance offered by many. I am one of the fortunate, or 
so I thought. Had I known when I applied for the Independent 
Living Program in November of 2003 that it was leading me into 
a 4-year nightmare that would affect me both mentally and 
physically, I would not be testifying before this Subcommittee 
today.
    In 1990, I was advised by the Savannah Vets Center to apply 
for Voc Rehab Services. I met with a case manager, was aptitude 
tested, and advised I should seek a vocation as a registered 
nurse or a teacher. With my experience in combat medics, the 
nursing course made sense. Unfortunately, school exacerbated by 
PTSD and my education was sporadic at best and disruptions were 
the norm. After many counseling sessions with him, his final 
statement to me was, ``If you ever get straightened out, come 
back and see me.''
    I languished for years, much like untold numbers of 
disabled veterans even as we speak. In October of 2000, fate 
knocked on my door. It was during the filming of the 
documentary, ``In the Shadow of the Blade,'' that I was 
reunited with my friend and fellow DUSTOFF medic from Vietnam, 
Jake Bailado. He told me of a cousin who was also a disabled 
Vietnam veteran who had applied for ILP. They assisted him in 
obtaining a small tractor to help him work his farm. After 
several years of PTSD therapy outside the VA system, in 
November of 2003 I met with Voc Rehab counselor Tina Hutchison 
in Savannah to apply for ILP. My goal was to try to obtain an 
interest-free loan to replace my antiquated tractor so I could 
cultivate my nine-acre property. Ms. Hutchison advised that my 
goal was out of the question because it was considered a 
vehicle. But ILP would in fact assist me with acquiring a 
greenhouse.
    That is where the nightmare began. To call it a run around 
is to put it mildly. Delaying tactics became the norm. Phone 
calls were not returned. Application processes were delayed. 
Emails went unanswered. And years passed. It was almost as if 
the people who were being paid to help were just hoping I would 
just die or go away. During my ordeal, I talked with several 
other disabled veterans who also needed and were qualified for 
ILP. I urged them to apply, but seeing the difficulty I was 
having and how it was affecting me both physically and 
mentally, they decided it was not worth their well being to go 
through with what I was going through. I began to wonder if 
this was the whole point. After all, when word gets around how 
difficult the process is, fewer veterans will pursue it.
    Sharing with them a letter I received with Atlanta Region 
Director L. R. Burkes in 2007 apologizing for his subordinates' 
failures and promising needed improvements, these veterans did 
indeed apply for ILP. They then began the experience the status 
quo. Complete an application, it gets lost. Complete another, 
it goes into a black hole some call the process. Emails and 
phone calls again are not answered. Sometimes when they are, 
the veteran is treated with disrespect and scorn as if he or 
she is asking for a handout instead of a benefit which they 
earned with their broken bodies.
    Now as I network with even more disabled veterans, it 
appears that ILP is a benefit that is being held close to the 
vest, not to be disseminated. Is this because of the 2,500 cap, 
which equates to less than 1 percent of the eligible 100 
percent disabled veterans population? I cannot answer that. I 
do know that malfeasance is being overlooked while the 
consequences of ineptitude are being suffered by the very 
deserving people the VA exists to serve, America's disabled 
vets.
    The American people, through their Congress, have made it 
clear that they want to support the troops and they want to 
support veterans. This body passes legislation for such 
programs, but when bureaucratic land mines prevent us from 
actually assessing the programs afforded the opportunity to 
make a difference for veterans is missed.
    Many years ago in the rice paddies of Vietnam, I aided the 
wounded. Now these many years later, I have vowed to advocate 
for my wounded brothers, yet again. It has become a formidable 
task that needs your involvement. I am asking you to take this 
battle to task. As American veterans both young and old have 
fought for you, we need you to fight for us now. One thousand 
four hundred and seven days fighting the enemy in Vietnam. One 
thousand four hundred and sixty three days fighting the VA for 
an ILP. Thank you.
    [The prepared statement of Mr. McCartney appears on p. 40.]
    Mr. Hall. Thank you, Mr. McCartney. Mr. Lancaster, you are 
now recognized.

                 STATEMENT OF JOHN A. LANCASTER

    Mr. Lancaster. Thank you, Chairman Hall and Ranking Member 
Boozman. Thanks for this opportunity to testify before you on 
behalf of the National Council on Independent Living. Mr. 
Boozman, if we did get an official request to serve on the VA's 
Independent Living Program Committee we would gladly and 
honorably accept that role and do what we could.
    I am a disabled vet as well, only I guess I am far more 
fortunate than Bruce next to me in that years ago, I did get 
relatively what I consider decent service from the VA system. 
It sent me back to my alma mater where I was able to get a law 
degree. It did great physical rehabilitation for me. It even 
then, before there was an Independent Living Program per se, 
gave me a few independent living services. They gave me driving 
lessons with hand controls on the car, which is a major part of 
independent living, being able to get around.
    Fortunately, I have had a successful life and a successful 
career and have not had to rely on such services. And my career 
over the years has brought me to my current position as 
Executive Director of the National Council on Independent 
Living. We are an association representing all the Centers for 
Independent Living and State Independent Living Councils around 
the country. This Independent Living Program is, as you know, 
funded through Title 7 of the Rehabilitation Act and 
administered by the Rehabilitation Services Administration of 
U.S. Department of Education. Three hundred and thirty six 
centers receive direct Federal funding through Title 7 of the 
Rehab Act. Another maybe 70 to 80 centers receive indirect 
funding through their State governments and through indirect 
Federal funding, making a little over 400 centers in this 
country providing independent living services to people with 
very severe disabilities in every Congressional district in the 
country, except five. And we will get those other five sooner 
or later.
    Services they provide are peer counseling. People with 
severe disabilities working with, mentoring, showing through 
steps other people with severe disabilities how to manage their 
lives, how to be fully included in the community, and how to be 
productive citizens. They provide information and referral. 
They do independent living skills training on everything from 
managing one's life in their own home to balancing checkbooks, 
to navigating housing authority processes, to navigating 
employment service processes. And then fourth, all of these 
centers are providing advocacy on some level or another. 
Individual advocacy on behalf of the individual who might need 
that advocacy, and systems advocacy, working with the community 
to make sure that the community is more accessible to and 
inclusive of people with disabilities.
    And I have included in my written testimony the value of 
our program. The number of people that have been able to get 
out of institutions; the number of people that they have 
prevented from going into institutions; the employment services 
that they have delivered; personal care attendant services; 
transportation services; assistive technology.
    We welcome the opportunity, and indeed some of our centers 
are starting to working closely with the VA on a number of 
independent living initiatives. And I indeed, personally, have 
met with Ruth Fanning and we have had a successful, I hope, 
beginning in terms of continuing a dialog.
    There are some differences in the way the VA approaches 
independent living to what we do. At the core of our belief in 
our system is consumer control. That you take the individual 
and you put them in control of their own services and their own 
lives, and you support them and teach them, and mentor them in 
getting to that point. So that the veteran, in this case, the 
disabled veteran, would become the hub and the controller, if 
you will, of the things that that individuals needs to 
participate fully in the community and ideally to have a job. 
If that means personal care attendant, personal care attendant. 
If that means access to affordable, accessible, inclusive 
housing, then that gets provided or at least you work with a 
veteran to make sure that they get their Section 8 voucher if 
that is what they need, or whatever other support. If it is 
home modifications, home modifications. Those sorts of advice 
and suggestions. So we have a much, I think, more expansive, 
broader view. We feel that independent living does not stop 
with the ability to operate in your home. That it really ends 
when the person has achieved full inclusion in their community 
and has achieved economic self-sufficiency. Often, that means a 
job.
    We have three recommendations in this area, which our 
network certainly has a major responsibility for, at least in 
two of them. Number one, there needs to be much great sharing 
of information between the Veterans Administration and the 
Independent Living Program, and State veterans organizations 
and the Independent Living Program. And when I say the national 
VA, the Department of Veterans Affairs, we are talking more 
here about regional and local offices than a dialog that might 
go on between, say, Ruth and I here in Washington. It has got 
to live down in the communities across the country. So, there 
are training programs we could be doing. There is some, you 
know, encouragement from ideally up here in Congress to get 
parties talking together down at the local level. But there 
needs to be a better understanding between the two systems. And 
certainly we take responsibility for that. And there are some 
things, good things going in that regard in States like Alaska, 
Minnesota, Michigan, in particular, Florida. So we do have some 
things going there.
    Second----
    Mr. Hall. Mr. Lancaster, in the interest of time, please 
summarize.
    Mr. Lancaster. Yeah, two final recommendations. Second, the 
need for CILs to better understand, Centers for Independent 
Living, in our network, the whole veterans world and for lack 
of a better word the veteran culture and to establish 
relationship with veterans service organizations (VSOs) as well 
as State and Federal VA things.
    Third, and I think this would go a long way, is in that 
system of 336 direct federally funded centers out there around 
the country, if the money could be provided, and I figured it 
would be in the neighborhood of $25 million, frankly, to place 
one veteran, ideally a disabled veteran, as an employee in 
every single one of those centers with the primary 
responsibility of reaching to the veteran community and to 
disabled veterans in their community that need Independent 
Living Programs so that we do not have the type of 
misunderstanding and miscommunication that was so eloquently 
explained by Mr. Bruce McCartney here next to me. So I think 
that would be a real solid recommendation that would go a long 
way to promoting the independent living of disabled veterans in 
this country. Thank you.
    [The prepared statement of Mr. Lancaster appears on p. 40.]
    Mr. Hall. Thank you, Mr. Lancaster. Let me recognize myself 
for a few questions. First Mr. McCartney, thank you for your 
service and for your moving testimony. In your opinion, what 
would be the major change that the VA needs to make regarding 
the Independent Living Program? If you could wave a magic wand 
and have one thing change, what would that be?
    Mr. McCartney. Directives need to come out that the 
Independent Living Program is something to be exploited by each 
case manager to every veteran that comes into the door, that it 
is explained to them. All these 272,000 100-percent disabled 
veterans and the hundreds of thousands of others with 60 and 70 
percent disabled, who are qualified for the Program. And then 
they need to action these in a fast track. It should not take a 
year, it should not take 2 years, 3 years, 4 years, for one 
person to get a Program.
    Mr. Hall. Thank you. In trying to get assistance from the 
Independent Living Program, do you think that the VA personnel 
understood the Program and how it should help veterans?
    Mr. McCartney. I think there is a break down from the 
lowest echelon to the highest echelon. I have been in contact 
with each chain of command. And at each level of command, from 
the Director's Office down to the local case manager, is 
repeatedly delay, no answer. Personally, I felt like I had the 
plague or they just wanted me to go away.
    Mr. Hall. And sir, what is the status of your application 
today?
    Mr. McCartney. It was completed in 2007, in December of 
2007. And there was supposed to be a 1-year followup between 
myself and my case manager. I do not know who my case manager 
is. Every month I fill out my report and I have it for them 
whenever they are ready for it.
    Mr. Hall. What was the problem, or what was more the 
problem, your counselor or the program itself?
    Mr. McCartney. The personnel running the program. Like I 
say, I think it is a close held program. And the ILP is put at 
the bottom list of everything. I have communications from the 
case manager that said, after 2 years in the process, in 
November of 2005, they say, ``Well, I had a really extremely 
heavy caseload and I can finally get around to your case now.''
    Mr. Hall. Thank you. What do you think, Mr. McCartney, is 
the greatest benefit of the ILP? Let us know when you----
    Mr. McCartney. Right now it is hard for me to see any 
benefits of it.
    Mr. Hall. I understand, sir.
    Mr. McCartney. Because I am advocating for eight veterans 
right now who are going through the same exact thing that I am. 
Some of them it has been 15 months since they submitted their 
application.
    Mr. Hall. Mm-hmm.
    Mr. McCartney. And they were resubmitted. So are there any 
real benefits? Negligible.
    Mr. Hall. When you find some, you will come back and tell 
us?
    Mr. McCartney. I definitely will.
    Mr. Hall. Thank you. Mr. Lancaster, how many referrals does 
NCIL get from the VA per month?
    Mr. Lancaster. I do not have that information. And I would 
suspect that with the exception of two or three States that the 
answer would be zero. In Michigan I know there is, there is a 
direct linkage and a memorandum of understanding in place 
between the State of Michigan which includes the Independent 
Living Program. And I do not know the number of referrals that 
that amounts to. But we can find that information out. But I 
know in a lot of States what we have learned from a survey that 
we did to ourselves that the number of veterans they are seeing 
is increasing dramatically. Interestingly enough they are 
seeing a large number of Vietnam veterans and a smaller number 
of Iraqi/Afghani veterans, although it is our suspicion that in 
the future we will start seeing more of those as well. But they 
are coming in off the street. They are not coming in as 
referrals. Or off the street may be the wrong word, but they 
are coming by a word of mouth referral or some other referral 
than through the VA.
    Mr. Hall. Thank you, sir. Now I will recognize Ranking 
Member Boozman and also acknowledge the presence of our Chair, 
Chairwoman Herseth Sandlin, and turn the Chair back over to her 
at the same time. Mr. Boozman?
    Mr. Boozman. Thank you, Mr. Hall. I was reading, and you 
mentioned in your testimony, your caseworker saying something 
to the effect that if you ever get straightened out come back 
and see me. So we are glad that you have gotten straightened 
out and that you are here seeing us. At first you wanted a 
tractor, and then, you were persuaded, or pushed into the 
greenhouse. Has that been helpful? I know you have gone through 
this tremendous ordeal. But is that something that, you know, 
if we could forget about that, is that entity being helpful to 
you in what you are trying to get done?
    Mr. McCartney. Initially, I wanted an interest free loan, 
or assistance getting an interest free loan, so I could buy my 
own tractor.
    Mr. Boozman. Right.
    Mr. McCartney. And then pay it back. After 4 years, 4 years 
and a couple of days, my greenhouse was completed. 
Unfortunately, the contractors were not paid as they should 
have been and they kept showing up at my door. And I took out a 
line of credit and paid them off. And when they got paid then 
they reimbursed me. I felt morally that I had to do that 
because I had a good relationship with all three contractors 
that worked on this project. Since the project has been 
completed I have had----
    Mr. Boozman. That is my next question. Have they 
subsequently reimbursed you? Is that----
    Mr. McCartney. The contractors.
    Mr. Boozman. Have you gotten paid for----
    Mr. McCartney. Yes, sir, I have. The day after they got the 
check they came to my door and said, ``We appreciate you 
putting this money up front for us.'' You know, 75, 80 days is 
too long to pay a contractor.
    Mr. Boozman. But since that time the VA has reimbursed you?
    Mr. McCartney. Yes, sir. The VA?
    Mr. Boozman. You got your----
    Mr. McCartney. No, the contractors. The contractors 
reimbursed me, yes, sir.
    Mr. Boozman. Okay, very good.
    Mr. McCartney. Since we have been completed, I have had 
three 4-H clubs come to the greenhouse. I am doing all 
hydroponics. That is unheard of in southeast Georgia. I have 
had a couple master gardeners come and emulate my hydroponics 
system. We have had two high school horticulture classes come. 
And it is an educational process for them in that I make them 
determine the volume of a four by eight pool, and how much 
chemicals or nutrients to add to this. So it is a good learning 
process for them. It is really been good for me that I am in my 
comfort zone and I can do what I like to do in my comfort zone.
    Mr. Boozman. Very good. Mr. Lancaster, Mr. McCartney has 
very well, in detail, been able to deduce his experience 
through the years. In your experience with dealing with other 
veterans, have they had the same problems? Or is it a regional 
phenomenon? Or----
    Mr. Lancaster. No, I would say that there are a number of 
veterans who experienced significant disabilities, often one 
similar to Mr. McCartney, like PTSD, who have had similar 
experiences over the years. There has been some fairly good 
efforts through the Vets Centers to deal with some of the 
counseling issues. But in terms of getting some of the hard 
support issues toward independent living and productivity like 
Mr. McCartney is talking about, I think there are some real 
issues going on.
    Mr. Boozman. You deal with these things. We can see how 
long this takes. What would be a reasonable time factor to get 
a greenhouse? To accomplish that task that he was trying to get 
done?
    Mr. Lancaster. I would say from application point to when 
he is up and running, not knowing a lot about Mr. McCartney's 
business I have to, you know, confess there. So I do not know 
what the start up time. But I would think in terms of 
application to approval, you know, a reasonable time might be 
in the area of a, you know, maybe a month. And then immediately 
start getting that, you know, assistance going.
    Mr. Boozman. Right.
    Mr. Lancaster. I mean, I cannot see why it should take all 
that long.
    Mr. Boozman. Do you agree, he mentioned, one of the things 
that Mr. McCartney mentioned was the fact that lots of veterans 
do not know about the program. That we need a better education 
program to, so that veterans in this situation will be aware. 
Is that a fair statement?
    Mr. Lancaster. I would say that is a very fair statement. I 
would also say, as I said in my testimony, our system, the 
Independent Living Program, needs to know more about the VA's 
Independent Living Program so that we can better serve 
veterans. And that is a shortcoming on our part. Our centers 
are stretched pretty thin. So it would be really good to have 
some sort of training program that we could implement, or the 
VA could implement, or somebody could implement, to be 
systematically training Centers for independent living on what 
is available through the VA. So that when a veteran comes in we 
can appropriately refer if the referral has them coming from 
us. And then also people need to look at what our system, which 
has been around since 1978, can do for veterans. It is already 
an established system funded in part by the Federal Government 
through the Rehabilitation Services Administration. And, you 
know, it is a, it is a really good system that empowers people 
into taking responsibility for their own lives and getting 
involved in the community and achieving economic self-
sufficiency.
    So let us not reinvent the wheel, here. Let us create the 
linkages and the support systems to make what is out there 
work.
    Mr. Boozman. Right. Again, I thank both of you for your 
service to your country. Your testimony today was very helpful. 
Thank you, Madam Chair.
    Ms. Herseth Sandlin [presiding]. Thank you, Mr. Boozman. I 
just have one quick followup before turning over to Mr. Scalise 
for his questions. Mr. Lancaster, then, I know that the Centers 
for Independent Living conducted a survey on some of what you 
were just discussing in terms of this need for a more formal 
connection----
    Mr. Lancaster. Mm-hmm.
    Ms. Herseth Sandlin [continuing]. And relationship, and the 
ideas of systematic training, and understanding among the 
Centers are stretched thin. What has been the attempt in the 
past to improve the relationship between the Centers and the 
VA? Is this primarily a budgetary matter? Or are there some 
bureaucratic issues as it relates to identifiable individuals 
within the VA that are here to help establish a more formal 
connection? You had mentioned in your response to Mr. Boozman 
that maybe there is some responsibility on the part of the 
Centers. I mean, what has been done in the past?
    Mr. Lancaster. Well frankly, to be real honest, not a lot 
has been done. There has been a big, how shall I say it, lack 
of understanding between what our system has to offer and our 
lack of understanding and knowledge of the VA system. 
Traditionally and in past years veterans tended to turn to 
veterans service organizations for most of their needs and 
service and advocacy, or directly to the VA. Recently we have 
been seeing a major shift in that. That is why we did this 
survey. That is why we are starting to really look at these 
issues where we are starting to see significant numbers of 
veterans coming for the first time, Vietnam era ones are the 
largest number, but now more and more of the Iraqi/Afghani 
veterans coming to us for assistance in accessing housing, for 
peer support and mentoring, for employment-related services, 
for personal care attendant services. And also for other 
services, like access to assistive technology and good advice 
in that regard. So there is a variety of different things that 
these veterans are starting to come to.
    Now we feel they are coming to the right place. Then again, 
we also know that some veterans are not looking at us as a 
support system and a place where they can get services that 
will empower them and help them access what they need because 
we are not veterans. I am, personally, and some are, but for 
the most part it is not like a VSO. And that is where our 
system needs to reach out and better understand, for lack of a 
better word, kind of the veteran community culture, and the 
brother- and sisterhood, if you will, that exists among 
veterans.
    And why the recommendation that I made I think would be so 
valuable. If there could be resources made available for every 
single one of those 336 directly federally funded centers to 
have the funds to hire a veteran, preferably a disabled 
veteran, to work in their centers, to do outreach to veterans 
service organizations, to the State Veterans Affairs Agencies, 
and the VA, to broker and work with and help put together the 
services, I think it could go a long toward developing a, kind 
of a more seamless system, if you will, that would be far more 
responsive. And that could cover the myriad of opportunities 
that are available between the VA, State veterans 
organizations, and State veterans benefits, and what veterans 
service organizations have to provide.
    Ms. Herseth Sandlin. Thank you very much. Mr. Scalise, you 
are recognized.
    Mr. Scalise. Thank you, Madam Chair. Sergeant McCartney, 
your testimony had mentioned VA has some contract counselors. 
What is your experience been with them compared to the regular 
staff?
    Mr. McCartney. The consultants.
    Mr. Scalise. Yeah.
    Mr. McCartney. Superb. My consultant was a veteran. That 
made it easier. He, he could empathize with what I had been 
through and what I was going through. And he was a shoulder 
that I often went to when I was having problems with the 
Regional Office or the Director's Office, or even my local case 
manager.
    Mr. Scalise. Still followed the same procedures? I guess 
what I would be curious to find out is what was he doing 
differently than the other staff? Or what were they not doing 
within the guidelines that they are all supposed to follow why 
would you maybe get one experience----
    Mr. McCartney. He did not come on board until after 
Congressman Barrow endorsed a letter to Congressman Filner 
about getting this project started. It was way overdue. Only 
then was he contacted by the Director, who said, ``Let us get 
on this one and let us get it done soon.'' So that is when he 
came aboard. I have only been in contact with him for a matter 
of months. And everything was professional and aboveboard. And 
when I called him or emailed him with a question or a concern, 
I got immediate replies. So----
    Mr. Scalise. And why do you not think you got that same 
kind of response from some of the staff that you dealt with in 
the past?
    Mr. McCartney. Malfeasance. Ineptitude. Caseload. Lack of 
caring for disabled veteran needs.
    Mr. Scalise. So you could sense not only procedurally maybe 
they approached things differently, but just from maybe a sense 
of urgency to want to help? You did not find that from some of 
that staff that you did find with the contract person?
    Mr. McCartney. Not only could I sense it. I felt it. I 
lived it.
    Mr. Scalise. Now, you said you are also helping some other 
veterans. Eight other, I think you said, at the current, at 
present time.
    Mr. McCartney. Yes, sir.
    Mr. Scalise. Now, are you going through the consultant with 
them? Or is this going through a different channel?
    Mr. McCartney. Everything starts at the local case manager 
level. From there they get their application from the case 
manager. The case manager sends it to the Regional Office. The 
Regional Office sits on it for a period of time. Then it goes 
back to the case manager and says, ``Okay, well we are going to 
approve this. You know, we have found that this veteran would 
be qualified.'' Now that is a change in the system from when I 
first applied. The case manager went into the computer, looked 
at my records and says, ``Yes, you are qualified for 
independent living.'' That is when the process started then. 
Now we have a delay, that the case manager has to send to 
Regional, Regional might take a month or two or three or six or 
seven, as is the case with a couple of the veterans that I am 
working with now, before they send anything back down.
    Mr. Scalise. Is that a policy change?
    Mr. McCartney. I cannot answer that. I would presume it 
would be. Because like I say, when I applied, when I applied 
with the case manager in November of 2003 she said, ``Well, you 
are qualified.'' Now the veterans are applying with the case 
manager, they do a small interview, a bio, and it, they might 
get called back in a month or two.
    Mr. Scalise. So they are not able to get that immediate 
response?
    Mr. McCartney. Pardon me.
    Mr. Scalise. They are not able to get that immediate 
response----
    Mr. McCartney. No.
    Mr. Scalise. All right. That is all I have for now. Thank 
you. And thank you both for your service.
    Ms. Herseth Sandlin. Thank you. I do not have any further 
questions. I do want to thank you, Mr. McCartney, for being 
here and sharing your experience. I can certainly appreciate 
the level of frustration with the lack of responsiveness, which 
oftentimes can be a lot more frustrating than not getting the 
desired outcome such as having some sort of forward progress 
and resolution to the needs under the ILP program. We 
appreciate the insights you have been able to offer today. Mr. 
Lancaster, we appreciate your testimony as well, your service 
to the country, and for being here today and for offering your 
testimony. Thank you very much.
    Mr. Lancaster. Madam Chairwoman and Ranking Member, thank 
you for this Subcommittee bringing attention to this matter and 
holding this hearing. Thank you very much.
    Ms. Herseth Sandlin. Thank you.
    Mr. Boozman. Absolutely.
    Ms. Herseth Sandlin. I would now like to invite our second 
panel to the witness table. Joining us is Mr. Richard Daley, 
Associate Legislation Director of the Paralyzed Veterans of 
America; who is accompanied by Ms. Theresa Barnes Boyd, 
Vocational Rehabilitation Consultant of the Paralyzed Veterans 
of America; and Mr. Mark Walker, Assistant Director of the 
Economic Commission for the American Legion. We thank you all 
for joining us today. Mr. Daley, I think we will go ahead and 
begin with your testimony. You are recognized for 5 minutes.

   STATEMENTS RICHARD DALEY, ASSOCIATE LEGISLATION DIRECTOR, 
 PARALYZED VETERANS OF AMERICA, ACCOMPANIED BY THERESA BARNES 
BOYD, VOCATIONAL REHABILITATION CONSULTANT, PARALYZED VETERANS 
   OF AMERICA; AND MARK WALKER, ASSISTANT DIRECTOR, NATIONAL 
              ECONOMIC COMMISSION, AMERICAN LEGION

                   STATEMENT OF RICHARD DALEY

    Mr. Daley. Chairwoman Herseth Sandlin, Ranking Member 
Boozman, and Members of the Subcommittee, I would like to thank 
you for this opportunity for Paralyzed Veterans of America to 
discuss the Department of Veterans Affairs Independent Living 
Program which is administered by VA's Vocational Rehabilitation 
and Employment (VR&E) Program. PVA believes that the VR&E 
Program is one of the most critical programs that the VA 
administers in assisting veterans with disabilities to 
successfully transition to civilian life.
    The primary mission of the VR&E Program is to provide 
veterans with service connected disabilities all the necessary 
services and assistance to achieve maximum independence in 
daily living to the maximum extent feasible, to become 
employable, and obtain and maintain suitable employment. In 
1980, when the Independent Living Program was first developed, 
it was a pilot program. It had a 500 cap maximum to the 
program. The program was successful and the 500 cap seemed to 
be forgotten. And they went, actually went beyond the 500. 
Years after dealing with the 500 case cap, the VA met with 
Congressional staff members to request the case cap be removed. 
Congress at that time would not remove the cap because they 
wanted the VA to implement stronger guidelines for the program. 
However, Congress did accede to increase the case cap from 500 
to 2,500 in 2001.
    Even though the new case cap was increased, the VA 
continued to bump up against the case cap for many years. This 
caused a slow down in delivery of services. They had to request 
counselors when they got close to the cap to send their 
applications into the national office for review, and the 
review took some time. And so they never quite finished all the 
applications for that year and they ran over into the next 
fiscal year, then they could approach the cases and open them 
up again. The cause in the delay also placed a burden on the 
VR&E staff because they had to take the time to review the 
applications and they had to also monitor the number of people 
that were actually applying so they did not reach the 2,500 or 
exceed it.
    PVA strongly opposes any unnecessary delay in services, 
especially services to severely disabled veterans. PVA is 
extremely disappointed that VR&E staff is still forced to abide 
by the arbitrary 2,500 new case cap. At this time when the 
continuation of our military efforts in Operation Iraqi Freedom 
and Operation Enduring Freedom are unfortunately resulting in 
ever increasing numbers of veterans who sustain serious 
injuries, any limit imposed on the delivery of services to the 
severely disabled veterans is at best contrary to the intent of 
Congress and the American people.
    To achieve the successful outcome with the approximately 
95,000 veterans each year, VR&E has made progress through 
continual improvement of its programs. In 2004, VR&E hired an 
Independent Living Coordinator to manage the Program. In 2005, 
the Independent Living Standards of Practice were issued for 
the VR&E field staff and provided guidance for them. And over 
the last 3 to 4 years VR&E has not met their limit in that gap, 
but that is probably because of the slow down in procedures 
that you heard about earlier.
    The removal of the IL cap, the greater attention directed 
to serving veterans with severe disabilities, PVA recommends 
that VR&E be given additional, professional, full-time employee 
positions for the Independent Living Specialist counselors. 
These experienced counselors should be fully devoted to 
delivering the service to those veterans determined to have 
serious employment handicaps and partnering with other programs 
in the community to bring to the veteran the full range of 
independent living services available.
    Madam Chairwoman, that concludes my testimony. I would be 
happy to answer any questions you may have.
    [The prepared statement of Mr. Daley appears on p. 42.]
    Ms. Herseth Sandlin. Thank you, Mr. Daley. Mr. Walker, you 
are now recognized for 5 minutes.

                    STATEMENT OF MARK WALKER

    Mr. Walker. Madam Chairwoman, Ranking Member Boozman, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to present the views of the American Legion 
regarding the Independent Living Program. The Independent 
Living Program serves severely disabled veterans who VA 
determined at that time were unable to pursue an employment 
goal. The Independent Living Program provides the veteran with 
an evaluation and counseling, prosthetic appliances, adaptive 
automobile equipment, wheelchair training, and other services 
necessary to enable a severely disabled veteran to achieve 
maximum independence in daily living. Veterans may remain in an 
Independent Living Program for a maximum of 30 months.
    Chapter 31 of Title 38, United States Code, limits the 
number of veterans who can be placed in Independent Living 
Program to 2,500 annually. The American Legion supports the 
removal of this cap. VA should effectively manage and monitor 
the number of new Independent Living Program participants and 
provide detailed information to Congress on delays in veterans 
services until a decision has been made to remove the annual 
statutory cap.
    Severely disabled veterans state that the independent 
living services assisted them in adjusting to home life and 
participating with family and community at a higher level. The 
Program has provided severely disabled veterans much needed 
assistance and possible hope for future employment. In February 
2007, the VA Secretary stated that the Vocational 
Rehabilitation and Employment Program anticipates a steady 
increase in the demand for independent living services over the 
next 10 years. At this time in the Nation's history, it is 
paramount that we ensure the VA is capable of enabling veterans 
with disabilities to have a seamless transition from military 
service to successful rehabilitation and on to suitable 
employment after military service.
    For severely disabled veterans this success will be 
measured by their ability to live independently, achieve the 
highest quality of life possible, and realize the hope for 
employment given advances in medical science and technology. To 
meet America's obligation to these specific veterans and other 
eligible vocational rehabilitation employment veterans, VA 
leadership must continue to focus on marked improvements in 
case management, vocational counseling, and most importantly 
job placement.
    The American Legion strongly supports the Independent 
Living Program and is committed to working with VA and other 
Federal agencies to ensure that America's severely disabled 
veterans are provided with the highest level of service and 
employment assistance.
    Again, thank you for the opportunity to present the opinion 
of the American Legion on this issue.
    [The prepared statement of Mr. Walker appears on p. 44.]
    Ms. Herseth Sandlin. Thank you, Mr. Walker. Let me start 
with a question to both of you, just to clarify. Is your 
organization's position that the statutory cap should be 
removed entirely or increased? If the organization's position 
is that it should be increased rather than removed, do you have 
a number? A projected number that you would suggest?
    Mr. Daley. PVA believes at this time it should be removed. 
There is a bill in the Senate to actually remove it. And we 
probably do not know what will happen. We do not know about the 
caseload that we will get from the current conflict. There are 
probably many, many people out there that could qualify for the 
program if it is removed.
    Ms. Herseth Sandlin. Mr. Walker.
    Mr. Walker. The American Legion also desires for the cap to 
be removed.
    Ms. Herseth Sandlin. Have your organizations both held this 
position for many years? Or was this a modification of the 
position in light of the increased numbers of severely disabled 
veterans we are seeing returning home from OIF and OEF, as well 
as some of the more severely disabled veterans from past 
conflicts, particularly those Vietnam veterans who may be 
suffering from PTSD and have a high degree of service-connected 
disability?
    Mr. Daley. I was not as familiar with the legislative goals 
of PVA in, say, 2000, 2001. I was working with the organization 
in another capacity. But why should we have a cap on any 
program that is for the severely service-disabled veteran? And 
say, ``Well, sorry, thanks for serving your country. Come back 
in October 1st, our new fiscal year, so we can deliver benefits 
to you.'' No, I do not think that we should ever have a cap and 
we have probably felt that way all along.
    Ms. Herseth Sandlin. I appreciate that and I am asking a 
question that goes back. I am asking the question because prior 
to this hearing, this particular program has not gotten the 
attention we think it warrants. A number of other veterans 
service organizations felt that they were not in a position to 
provide testimony as they do in other hearings because this 
program is one that VSOs are not as familiar with. This 
occurrence sort of goes to the issue of Mr. Lancaster's 
testimony, and perhaps both of you could comment on it. As he 
recognized the issue, he said, ``Look, well there is just sort 
of a general lack of understanding of everybody's systems, 
whether it is the VA's system program, whether it is the 
systems with the Centers of Independent Living, or whether it 
is the VSOs, and how to make those referrals smooth and what 
everyone can provide.'' I mean, would either of you like to 
comment on Mr. Lancaster's statements?
    Mr. Daley. To address what you are referring to, 
Chairwoman, about if people do not know about, I called several 
service officers that are out in the field for PVA and asked 
them about the program. And of course our service officers, 
they deal with paraplegics and quadriplegics, so of course they 
qualify for Independent Living Programs. And they knew nothing 
about it. They said, ``I know of it, and it exists somewhere 
within the VA. But I cannot tell you much about it.'' One 
service officer with more than 20 years experience, he said, 
``Well, let us look it up in the VA publication and see what it 
says.'' This is the publication of all the Federal benefits. 
And you go to the index, independent living is not in there. So 
how would a veteran know about it? How would the parent or the 
spouse that is taking care of the severely disabled veteran 
even say, ``Well, there is a program here where you may be able 
to receive help.'' It is a secret.
    And too, since I did not know much about the program, I 
asked my colleague Theresa Boyd to accompany me because she has 
been very instrumental in putting together several vocational 
employment programs for PVA, the one that you have heard about 
in Richmond, Virginia. And we have two more on the drawing 
board now and she is responsible for that. But she is familiar 
with the Independent Living Program also. She has had many 
years with the VA. So I wish you could get a little knowledge 
from her.
    Ms. Herseth Sandlin. Well, I will seek some insight from 
her afterward. Maybe Mr. Walker wants to comment, and then I am 
going to turn it over to my colleagues. But it is good to know 
of Ms. Boyd's experience with the VA as well and perhaps 
particularly with this program? With the Independent Living 
Program? Okay. Mr. Walker.
    Mr. Walker. Well, the American Legion has found the same 
things. There is not a lot of outreach with this program. And 
there are just a lot of severely disabled veterans that do not 
know it even exists. So I think there needs to be some 
outreach, obviously, and ILP must engage other community based 
services as well. But we found the same thing to be true. That 
the word is not out about the program that can assist severely 
disabled veterans. It is not known as it should be. This is why 
we want the removal of the cap as well.
    Ms. Herseth Sandlin. If my colleagues would indulge me for 
a moment, I would like to ask Ms. Boyd then. Based on your 
experience, both with the VA and with PVA, what accounts for 
this lack of outreach? Do you have any recommendations on how 
we go about coordinating the sharing and facilitating of 
exchanging information more effectively to target and reach 
severely disabled veterans?
    Ms. Boyd. I think one of the issues that makes it a little 
confusing is that you cannot apply directly for a program of 
independent living. You have to first go in to the Vocational 
Rehabilitation Program and apply for services, and then a 
counselor, a VA counselor, has to make the determination that 
you are not currently reasonably feasible to achieve a 
vocational goal. So you have to go through that process first. 
And that may be, while everybody is familiar with the regular 
Voc Rehab Program, they are not that familiar with independent 
living because you do not apply directly for independent 
living.
    As far as outreach activities, I think it is difficult when 
you have this cap for 2,500 to go and say, ``We want you to 
increase your outreach activities but only do it to 2,500 
veterans.'' It is very difficult. In previous years when I 
worked for VA we did bump up against the cap. And that was very 
hard to manage. And nobody was very happy with VA when they 
went over the cap. So we were constantly trying to do these 
measures, estimate each month as we got near the end of the 
fiscal year and got nearer to that cap, and tried to slow the 
process down which was very frustrating for both counselors 
and, of course, veterans. So I think that may explain some of 
the lack of outreach.
    As far as recommendations I think there is plenty that 
could help improve the program. I believe that specialty 
counselors are called for, which could improve those linkages 
with community based programs. It is very hard, if you are a 
full service counsel in the VR&E program, to try to devote the 
time necessary for these cases with severe disabilities, and to 
go out and develop community resources to work with. There is 
just not a lot of time. It is the caseload issue. So I would, 
and I think PVA strongly recommends, specialty IL counselors.
    I also think that more staff perhaps at the Central Office 
to manage the program would help. If you really want to 
increase the program increase the outreach activities, remove 
the cap, then you can expect that there will be more veterans 
needing to be served. And with that, I think, has to come 
appropriate resources.
    Ms. Herseth Sandlin. Thank you very much. Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair. Ms. Boyd, we really 
have two things going on in the sense that you mentioned the 
reasons and I think that makes sense. If you have a capped 
program where you are bumping up against the cap then it does 
not make a lot of sense to go out and, right or wrong, to 
advertise the program. On the other hand, if you have a capped 
program and you know that you are going to be servicing so many 
individuals, you know, or about that number, unlike a lot of 
the other things that deal with it, it seems like it would be 
easier to plan your resources. Does that make sense? If you 
know that you are, you are going to be handling about 2,500 
cases or whatever?
    Ms. Boyd. I do not think it makes sense to the individual 
counselor out there. It can make sense from a national 
headquarters when you are trying to manage it. But I think it 
is difficult when you are managing individual caseloads and 
your counselors are out doing outreach. I think that is hard to 
manage.
    I will give you an example of how hard that cap was to 
manage, and this was several years ago when I worked at VA and 
we had to monitor that cap, as I said, very closely. And we 
were kind of estimating how much it was increasing each month. 
And 1 month it took us by complete surprise and I think it 
might have been the month of July. And it jumped up like 300 
cases in 1 month. And it had not done that before. It put us 
over the cap. And then we were all in trouble for that. Was 
that due to just an increase in outreach activities? Who knows? 
But that was very hard to manage and predict. And so while you 
say it should be easier to manage, you would think so. But I 
think once you get down to the service delivery level, it is 
not. It is very difficult to manage that.
    Mr. Boozman. I guess what I am saying is you kind of know 
how many folks are going to be in the program. The testimony 
that we heard where the gentleman had so much trouble with the 
delivery. Where is the bottleneck in the system? Now are we 
playing some games where caseworkers actually, because of the 
cap, is there a way to manipulate that without giving services, 
that they push them over into the next year? Because we are 
bumping up? I mean, does that kind of stuff go on?
    Ms. Boyd. I think you will find that there is not a VA 
counselor that does not want to serve a veteran. And so to 
answer that question VA did everything in its power not to 
delay services. And so, if that meant trying to provide some 
services under a different status, for example extended 
evaluation, VA counselors did everything to try not to delay 
services.
    Mr. Boozman. But in this case that we heard, I mean that is 
inexcusable.
    Ms. Boyd. Yes.
    Mr. Boozman. There is no, I mean, it is inexcusable. And 
probably we have other cases like that, you know? So I guess I 
am asking, where is the problem in that? You have kind of a 
finite number of people that you are going to deal with. Now 
you might, you have the problem of not bumping over the cap. 
That is what I was saying earlier. It is not like we get you in 
a situation where, not now because you are not with the VA, but 
we get the VA in a situation where they do not really know what 
kind of funds they are going to have until late in the system 
and all that. But in this particular situation, you know that 
you are going to have this group of people to service through 
the system. Your only problem is trying to keep that down. Why 
cannot we service that many people? Where is the bottleneck in 
the system? And in this case, it is inexcusable. I mean, there 
is no way to, so where is the bottleneck in the system? And do, 
in your experience, do we play games? Because of the cap, do we 
push people, do we, does it lay on the desk sometimes for 
months because somehow that pushes people into the cap system? 
Does that make sense? As far as providing assistance?
    Ms. Boyd. I understand what you are saying. And to answer 
that part of your question I go back to what I said earlier. I 
think, my guess would be that happens rarely. More likely what 
counselors are doing are figuring out another way to serve them 
without having them counted as a new case, a new IL case, until 
the start of the next fiscal year. I think they try very hard 
not to delay services intentionally. So they might, I do not 
know if I would call it playing games, but they might try to 
maneuver a different strategy to offer services without having 
to declare them a new IL case, would be my guess and my 
experience in working in VA.
    Mr. Boozman. But the bottleneck, like you say, the person 
on the civilian side says, ``You need to get this rolling 
within a month.'' That is normal for, you know, the civilian 
side. What drug this thing on for years?
    Ms. Boyd. I do not know. And it is inexcusable, as you 
said. I think some of the issues might be whatever was going on 
in that office, if there was counselor turnover. VA does have a 
pretty labor intensive, up front eligibility and entitlement 
processing that takes some time. And as I said, in the case of 
an IL program you cannot apply directly for that. The counselor 
first has to gather information and make the determination that 
you cannot achieve, or are not currently reasonably feasible to 
achieve a vocational goal. So it may be a combination of all 
those things. Counselor turnover, processing a heavy caseload, 
but in the end as you said, it is still inexcusable. And nobody 
would feel good about a case like that.
    Mr. Boozman. Yeah.
    Ms. Boyd. The veteran was not well served.
    Mr. Boozman. Right. Thank you very much. And I appreciate 
your testimony. I feel kind of bad, asking you questions in the 
sense of your VA experience. It is good to have you where you 
are. I think that you are valuable in the sense, you know, now 
that you can see both sides. And again, thank all of you for 
being here. Your testimony is very helpful.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman. I would just 
like to comment, too. I think based on what Mr. McCartney had 
stated in response to the question, ``Was it the counselor or 
the program,''his response was, ``It was the personnel who were 
in charge of this program.'' So I think the other 
recommendation you had made was the issue of staff at the 
Central Office to manage these programs. While Mr. Boozman said 
we do not expect you to defend the VA; yet from your experience 
in being able to intuit what might have happened in this 
situation, I think there are clearly a number of factors. Also 
in this instance, there was an issue of accountability with the 
local caseworker, and the staff needed to manage the program 
effectively.
    We have a vote that has been called, but I think we have 
time for Mr. Scalise's round of questions for this panel of 
witnesses. Then we will return after a brief recess for our 
final panel.
    Mr. Scalise. Thank you, Madam Chair. And I will cut it 
short so we can get out in time for the vote. But how long, has 
the cap been in place since the program started?
    Ms. Boyd. Originally the program was started as a pilot 
program in I believe 1980. And at that time a cap of 500 was 
placed on the program because it was a pilot program. Then what 
happened is people kind of forgot about the cap, and VA went 
over the cap. And I believe it was in about 2,000 or something 
Congress called VA up and they had a discussion about the cap. 
And at that time VA asked for the cap to be removed. Congress 
wanted stronger guidelines on the program. And they did agree 
to increase it to 2,500.
    Mr. Scalise. So was the cap put in place purely for 
financial reasons? Or was it because it was a pilot and they 
wanted to see how it worked before they made it more open 
ended?
    Ms. Boyd. I believe it was because it was a pilot program.
    Mr. Scalise. So now the, I mean this is going back to 1980 
so I think we are beyond the pilot stages, but the cap, as you 
said, is not 2,500 and we are, at what point in the fiscal 
year, I guess they start at zero on October 1st and then when 
they hit 2,500 they have to stop. When do they hit 2,500 now, 
typically, like in the last few years since that number has 
been in place?
    Ms. Boyd. I do not know if they have reached the cap in the 
last couple of years. When I worked at VA, we did bump up 
against it and exceed it. And it was typically about this time 
of year, in the fourth quarter of the fiscal year. Around July 
and August, it got pretty dicey. We were getting pretty close 
and I talked about the time where it jumped up in 1 month. And 
it was very hard to manage. You are trying to manage, you are 
trying to estimate, you know, the next month. You know, do we 
have to cut it off today or can we let it go a while longer? 
And so it was about this time of year that it got very 
difficult to manage.
    Mr. Scalise. When they are getting close and they know they 
still have a few months left where there might be light at the 
end of the tunnel but there are still services that are being 
requested, do they try to prioritize within that while they 
are----
    Ms. Boyd. Exactly. And that is what Mr. Daley was talking 
about in his testimony. It was burdensome, I think, on both the 
VA staff and the veterans who had to wait for that. Because one 
thing VA did was try to make a determination at that time as to 
who was most in need of services. In other words, who could 
wait until the start of the new fiscal year and who needed the 
services right away?
    Mr. Scalise. How closely do your organizations work with 
them in making those kind of determinations?
    Ms. Boyd. PVA working with VA to make those.
    Mr. Scalise. Yeah.
    Ms. Boyd. I think that that is a VA determination solely.
    Mr. Scalise. Okay. And then we are this, for this fiscal 
year we are at the cap? Close to the cap? Where----
    Ms. Boyd. I do not have that information.
    Mr. Scalise. Okay. I appreciate it and that is all I have 
for now, thank you. Madam Chair.
    Ms. Herseth Sandlin. Thank you. Well, we thank you for your 
testimony and the insights you have offered today and we will 
look forward to following up with you on some of the 
suggestions that you have offered to the Subcommittee. Thank 
you very much.
    We will now take a brief recess and return. Let me see how 
many votes; we have four votes. So it may take us a little bit 
of time to get back here. We will look forward to hearing from 
our third and final panel for the day when we return. So we are 
in recess for the time being.
    [Recess]
    Ms. Herseth Sandlin. Well, thank you for indulging this 
delay in the time. It is always hard to predict how long debate 
and motions to recommit will take and in this case we may have 
gotten back and gotten some of your testimony in during the 
break, but that is always very hard to predict. Also, the 
Ranking Member had a flight to catch as well as some family 
circumstances that came up at the last minute. So we will go 
ahead and take your testimony. I will have some questions for 
you. Then since there are no other Members here to object, I am 
going to recognize counsel for the Minority if there are any 
questions that he would like to ask for the record that the 
Ranking Member may have been prepared to ask before he had to 
leave.
    Joining us on our third panel is Ms. Ruth Fanning, Director 
of Vocational Rehabilitation Employment Service for the 
Veterans Benefits Administration for the U.S. Department of 
Veterans Affairs; who is accompanied by Dr. Lucille Beck, 
Consultant for Rehabilitation Services, National Director for 
Audiology and Speech Pathology of the Veterans Health 
Administration; and Dr. James F. Burris, Chief Consultant 
Geriatrics and Extended Care for the Veterans Health 
Administration.
    Ms. Fanning, I am going to recognize you first for 5 
minutes. I know we received your testimony just late last 
night, but it would help a lot if we can get it sooner just for 
future reference. It helps counsel and staff prepare. It helps 
Members prepare, and have a better chance to read it than the 
day of the hearing. We would appreciate if in the future you 
can get it to us a little bit sooner than this time. We 
appreciate you being here today, and look forward to your 
testimony. You are recognized for 5 minutes.

STATEMENTS OF RUTH FANNING, DIRECTOR, VOCATIONAL REHABILITATION 
AND EMPLOYMENT SERVICE, VETERANS BENEFITS ADMINISTRATION, U.S. 
DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY LUCILLE B. BECK, 
    PH.D., CONSULTANT FOR REHABILITATION SERVICES, NATIONAL 
   DIRECTOR, AUDIOLOGY AND SPEECH PATHOLOGY, VETERANS HEALTH 
 ADMINISTRATION; AND JAMES F. BURRIS, M.D., CHIEF CONSULTANT, 
 GERIATRICS AND EXTENDED CARE, VETERANS HEALTH ADMINISTRATION, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

                   STATEMENT OF RUTH FANNING

    Ms. Fanning. Madam Chairwoman and Members of the Committee, 
thank you for inviting me to appear before you today to discuss 
independent living services provided by VA's Vocational 
Rehabilitation and Employment Program. My testimony will 
provide an overview, address the cap of 2,500 new independent 
living cases per fiscal year, and describe VR&E's efforts to 
improve and facilitate the delivery of these essential 
services. I am pleased today to be accompanied by Dr. Lucille 
Beck, Chief Consultant for Rehabilitation Services, and Dr. 
James Burris, Chief Consultant for Geriatrics and Extended 
Care. I would also like to voice my appreciation for the 
opportunity to learn from the testimony of all the prior 
panelists, particularly Mr. McCartney.
    Independent living services may be provided to VR&E 
applicants when it is determined during the initial evaluation 
that they cannot, due to the severity of their disabilities, 
currently pursue a vocational goal. After this determination, 
each veteran participates in a thorough assessment of his or 
her potential IL needs. The evaluation begins with a 
preliminary assessment that is usually performed at the 
veterans' home. And during this assessment the counselor 
obtains information about a variety of issues. Those include 
housing, personal and emotional needs, leisure and vocational 
activities, and the ability of the veteran to perform 
activities of daily living. If potential IL needs are 
identified, a comprehensive assessment of IL needs is 
conducted. If the IL needs are found and it is determined that 
the achievement of goals is possible, the counselor works with 
the veteran to develop an independent living plan that outlines 
the goals, services, and assistance to be provided, and 
benchmarks that are used to determine progress in achieving 
greater independence in daily living.
    Independence in daily living translates to the veteran's 
ability to live and function within his family and community 
either without the services of others or with a reduced level 
of those services. Total programs of IL services are usually no 
longer than 24 months but can be extended for an additional 6 
months. Some IL services that VA provides include training in 
activities of daily living, attendant care during the period of 
transition, transportation when special arrangements are 
needed, peer counseling, training to improve awareness of 
rights and needs, assistance in identifying and maintaining 
volunteer or supported employment, services to decrease social 
isolation, and adaptive equipment that increases functional 
independence.
    With the passage of Public Law 108-103, the Veterans 
Education and Benefits Expansion Act of 2001, the limit on the 
number of new IL cases per year was increased from 500 to 
2,500. VR&E Service monitors newly developed IL plans monthly 
to track the total IL cases in comparison to this legislative 
cap. Tracking over the past 2 years demonstrates the ability of 
VR&E counselors to provide needed services within the current 
2,500 statutory cap; on average over the past 3 years 2,300 new 
cases of IL services in each year.
    Veterans with severe disabilities who participate in 
programs of independent living have achieved results that 
include increased independence, decreased isolation, decreased 
dependence on outside supports, enhanced family relationships, 
improved medication and therapeutic intervention compliance, 
greater community involvement, pursuit of full or part-time 
volunteer employment, and importantly progression from 
Independent Living Programs to other VR&E employment programs.
    As a result of increased outreach we anticipate more 
veterans will participate in programs of independent living 
services. Also the medical stabilization of returning OEF/OIF 
veterans with catastrophic injuries will necessitate their 
participation in vocational rehabilitation programs. The aging 
Vietnam era veteran population and the increasing number of 
veterans receiving compensation due to presumptive diseases 
will also likely increase the utilization of independent living 
services.
    I would just like to highlight that we have provided the 
field in 2005 with guidelines for the administration of the 
Independent Living Program. We have provided extensive training 
to the field in implementing those guidelines. We are currently 
conducting a study to obtain a more comprehensive understanding 
of the veterans who participate in IL Programs and this study 
is expected to be completed by the end of this fiscal year.
    I would like to conclude, since I am running out of time, 
with just an illustration of a veteran who we have assisted in 
Vocational Rehabilitation in the Independent Living Program. A 
veteran with an 80 percent VA disability rating applied for 
Chapter 31 benefits. He had also had a multitude of non-service 
connected disabilities and used a wheelchair due to the 
difficulties he had with ambulation as a result of his 
disabilities and injuries. His IL goals included increasing his 
ability to access his home independently, increasing his 
ability to socialize, and enhancing activities of daily living 
by providing adaptive computer equipment and teaching him how 
to use that equipment.
    Our VR&E counselor worked with a rehabilitation engineer to 
determine how best to increase the accessibility of the 
veteran's home. Based on the engineer's assessment and 
recommendation, VR&E provided the installation of solar-powered 
remote-controlled gates, on the veteran's property. Prior to 
installing the gates the veteran would have had to manually 
open and close those gates and this was difficult for him due 
to his disabilities. Now the veteran uses the gates daily and 
is able to come and go on his property without difficulty or 
pain.
    During the veteran's IL Program, he began to interact with 
his community at a greater rate. He began to attend community 
events and he joined a couple of different social clubs. Using 
a computer was also very important to this veteran and he had 
difficulty using a computer because his injuries placed 
limitations on the use of his hands. The veteran's IL plan 
included an adaptive computer, speaking software, and private 
instruction to teach him how to use the equipment and voice 
activation software. Today the veteran is able to use the 
computer to take care of his finances, communicate with his 
family and friends, shop, and conduct research.
    VR&E foresees an increased need for independent living 
services. We continue to assess our progress and develop 
methodologies and strategies to improve the delivery of 
benefits to these deserving veterans. Last year over 2,700 
independent living participants were rehabilitated, 
demonstrating they had achieved the goals of their program or 
made substantial gains in independence as a result of VR&E 
services.
    Madam Chairwoman, this concludes my statement. I would be 
pleased to answer any questions from you or any other Members 
of the Committee.
    [The prepared statement of Mr. Fanning appears on p. 44.]
    Ms. Herseth Sandlin. Well, thank you, Ms. Fanning. And I 
know at the beginning of your testimony you recognized Mr. 
McCartney so let me start there. Do you know when was the last 
time the office that Mr. McCartney dealt with was visited for 
quality assurance?
    Ms. Fanning. I do not have that date with me but I can take 
that for the record and followup with you.
    [The following was subsequently received from the VA:]

        The last Vocational Rehabilitation and Employment (VR&E) 
        quality assurance oversight survey of the Atlanta Regional 
        Office was in June 2007. A rating is not provided as a part of 
        the site visit protocol. Instead, offices are provided specific 
        feedback regarding management and operational issues geared 
        toward improving the service. The Atlanta quality oversight 
        survey included three commendable findings and five action 
        items.

        Commendable findings included: (1) effective operational 
        management and fiscal oversight, (2) effective working 
        partnerships with the employment community leading to increased 
        job opportunities for veterans, and (3) effective working 
        relationships with the military leading to strong outreach with 
        resulting early intervention services for servicemembers 
        exiting the military due to service connected disabilities.

        Action items included: (1) suggested information technology 
        enhancements to improve out-based counselors' access to 
        computer systems, (2) consistency of data entry, (3) 
        consistently informing veterans in writing regarding 
        entitlement determinations, (4) consistency in using required 
        worksheets for documenting evaluation and planning actions, and 
        (5) increased frequency of case management meetings.

    Ms. Herseth Sandlin. If you could take it for the record, 
and then if you could tell us how the office was rated when 
that quality assurance visit was conducted, we would appreciate 
it.
    What measures are generally taken as it relates to the 
folks at a more local level in administering and implementing 
this program to assure accountability, responsiveness, and 
quality assurance?
    Ms. Fanning. Well, as I noted in my testimony, we did 
prepare standard operating procedures (SOPs) for the field in 
2005. And since that time we have provided extensive training 
to the field in implementing those policies. In addition to 
that, and to supplement our current quality assurance program 
in which we regularly monitor casework and provide field 
offices with feedback, we have implemented a special review of 
independent living cases. I believe that these are some of the 
most important services that we provide and we want to ensure 
that the field is providing the services consistently and in 
accordance with the guidelines that we have given them.
    Ms. Herseth Sandlin. What about Mr. Lancaster's testimony 
when he stated that he felt that there should be a more formal 
connection, a better understanding, between the Centers for 
Independent Living, the national centers, and the VA's 
programs? Do you have any thoughts on the survey that they 
conducted? Any ideas for more kinds of systematic training so 
that there is a better familiarity between the two entities? 
Also, certainly as the VA does, will you continue working with 
the VSOs to make sure that there is constant communication and 
some outreach activities that occur?
    Ms. Fanning. I agree with Mr. Lancaster. It is vital to our 
providing excellent services to veterans that we coordinate and 
collaborate with all community resources that are attempting to 
provide excellent services themselves. I first met Mr. 
Lancaster back in February and subsequent to that, we have met 
together just to start forming a relationship. We had our 
leadership conference for all of our VR&E managers in St. 
Petersburg a couple weeks ago and I had invited Mr. Lancaster 
to come and speak with all of our staff. Unfortunately, he was 
not able to join us but he helped us arrange for one of the 
Independent Living Center managers from Michigan to come to our 
conference. And she co-presented with the VR&E manager from 
Michigan. There is an excellent collaboration in place in 
Michigan. And we wanted to let the VR&E officers know about 
that collaboration. We provided them with all of the Center for 
Independent Living points of contact and locations throughout 
the country. And we provided them with training tools that they 
could take back to educate their staff about the services 
provided by the Centers for Independent Living. We also have 
followup meetings planned with Mr. Lancaster's staff later next 
month.
    Ms. Herseth Sandlin. Now let us go to some of the testimony 
of the second panel with regard to the statutory cap on those 
participating. As you know, the number of ILPs in any fiscal 
year at 2,500. Has this limitation caused problems in placing 
veterans into the program?
    Ms. Fanning. I took a look at that very closely upon my 
arrival in my new position and in preparation for this hearing. 
In the last, as I said, the last 3 years the average number of 
veterans entering new plans of independent living has been 
2,300. So at the current time we are not reaching the goal. No 
cases are being held and no veterans have been prevented from 
entering into programs of independent living.
    Ms. Herseth Sandlin. At least those who have applied, or 
those who have become aware of the program through that contact 
with a VR&E counselor who would then be working with that 
counselor have applied for the program. Can you assure the 
Subcommittee of that universe of veterans that no one has been 
denied participation?
    Ms. Fanning. Yes. And as was mentioned earlier, veterans 
apply for Vocational Rehabilitation Services not particularly 
for independent living. As a part of our process in screening 
veterans and determining entitlement, we look at whether a 
veteran is able to obtain and sustain gainful employment. If 
that is not feasible for a veteran then independent living 
services are explored as an option. In addition, though, I want 
to point out that independent living services are also 
incorporated into employment programs. And I think that, you 
know, one of the reasons that the cap is not presenting an 
issue for us at this time is that as a part of the training we 
have done over the past 2 years, we have educated the field 
staff about the need to look at independent living needs at 
every point in the process. So even for a veteran who comes in 
that has significant disabilities who can enter into a program 
leading toward employment, we look at the independent living 
needs we can provide concurrently.
    Ms. Herseth Sandlin. Okay. Has that number gone up? You 
said 2,300 over the last 3 years. Did that number go up from 
the prior 3 years or 5 years? I mean, I would anticipate that 
in light of the serious injuries sustained by many in OIF and 
OEF the number would have gone up, just as we saw an increased 
utilization of the VA following those operations.
    Ms. Fanning. At this point it has not gone up. It is 
actually lower than it was last year at this point in the year. 
Currently we have had 1,277 new IL plans written this year. And 
again, I think that the reason for that is that counselors are 
more informed as a result of training. And independent living 
services are being provided concurrently with job ready 
services. And I think that is really best for veterans. We do 
not want to operate in a stovepipe manner. We want to provide 
comprehensive services that will shorten the time of the 
rehabilitation program and move veterans to their goals.
    Ms. Herseth Sandlin. Does the U.S. Department of Defense 
(DoD) offer you the names and contact information of any 
servicemembers who have been medically retired or medically 
discharged on a timely basis?
    Ms. Fanning. We currently have full time Voc Rehab 
counselors at 12 military treatment facilities (MTFs). We have 
13 counselors at 12 MTFs. We are in very close contact with 
DoD, reaching out to the warrior transition units. DoD is 
reaching out to us as well to make sure that as veterans are 
coming home, and particularly veterans with disabilities, that 
we are there providing early intervention. Our goal is to reach 
veterans while they are still servicemembers, while they are 
anticipating discharge and going through the medical 
rehabilitation phase, and help them get into the Voc Rehab 
program. So that even while they are still active duty they can 
start pursuing the training or whatever services they will need 
to reach their goals.
    Ms. Herseth Sandlin. Okay. Well then given how you have 
somewhat explained where we have been in not even reaching the 
cap, what kind of the comprehensive approach to delivering the 
services, would you be opposed to? Would the VA be opposed to 
increasing or removing that cap altogether, since it does not 
seem to really be coming into play one way or another from your 
testimony on delivering services to veterans?
    Ms. Fanning. At this point what I can say is that the cap 
is not presenting any kind of barrier to us. So I could not, 
you know, comment as to whether it would be appropriate to 
remove the cap or not. I can say that as the Director of the 
program, it is my job to ensure veterans are getting those 
services and that we are not holding anyone back. And no one is 
being held back. We are able to operate within the current cap.
    Ms. Herseth Sandlin. Do you know if there have been any 
instances, say in the last 10 years, from documentation that 
you have where you could provide when the requests for 
independent living services exceeded the cap number? The 
requests. Not the applications that were approved, but the 
number of requests?
    Ms. Fanning. Well, as I mentioned earlier, veterans do not 
apply for independent living services when they come to Voc 
Rehab.
    Ms. Herseth Sandlin. Not directly. So it has to be 
something that the counselor recommends? Or makes the veteran 
aware of?
    Ms. Fanning. The counselor is required to evaluate the need 
for independent living services, particularly when a veteran is 
found to be infeasible to pursue a vocational goal. That is a 
requirement. And if a veteran is found to be infeasible, unable 
to achieve an employment goal, and independent living services 
are not recommended, that decision by the counselor requires 
concurrence from their manager. So we have extra accountability 
in place to ensure that we evaluate that thoroughly and provide 
the services to veterans who need them.
    Ms. Herseth Sandlin. Are the counselors themselves aware at 
any point in time in the fiscal year what the total number is 
and if anyone is bumping up, if the program is bumping up 
against the cap? Or is that something that is known only by 
those in managerial positions?
    Ms. Fanning. We make the field aware on a monthly basis 
exactly where we are in relation to the cap.
    Ms. Herseth Sandlin. Overall.
    Ms. Fanning. And we do that for two reasons. One, because 
we want to keep independent living, the need to develop 
independent living services and plans in everyone's mind. We 
talk about it on every single hotline call. We also as a part 
of that let them know how many plans we have had thus far in 
the fiscal year. On the hotline managers are invited, and in my 
experience in most offices or at least many offices, their 
staff are in the room as well during call. The call is intended 
to provide them with a lot of communication and information 
about their ability to work within the program.
    Ms. Herseth Sandlin. Do you have information that you could 
share with the Subcommittee that documents the number of 
instances in which a counselor recommends participation in ILP 
for the veteran but then that decision is overridden by a 
manager? Not specific cases, but overall, do you track that 
type of information?
    Ms. Fanning. I do not, we do not track when the decision is 
overridden, no.
    Ms. Herseth Sandlin. Let me just ask couple of questions 
here more generally to VR&E. The 2004 VR&E Task Force stated, 
``VR&E's best efforts regarding employment of veterans resulted 
in only 10 percent of those participating in the program 
obtaining employment.'' The Report also states that VR&E 
averaged only about 10,000 a year for several years. Do you 
agree with the Report? What has been VR&E's average on getting 
people employed?
    Ms. Fanning. Our rehabilitation rate currently is 74.6 
percent. And the way the rehabilitation rate is calculated is 
based on those veterans who have received planned services that 
will lead toward rehabilitation. So of those veterans who are 
provided a plan of services, whether it is independent living 
or employment, who exit the program during a given year, 74.6 
percent currently are exiting as rehabilitation. The 10 percent 
number based on overall participants includes, our current 
overall participants, which is over 94,000. Our applicants this 
year were around 60,000. So you can see that there is a lot of 
cross over from prior years. So to just look at the number of 
overall participants, that moves from year to year because 
services can extend. For example, independent living services 
can be for up to 30 months. It does not provide a good estimate 
of the success. What we look at are those veterans who actually 
get to the point of a plan being developed and enter into a 
plan, and then exit from the plan during a given year. And that 
is a success rate that measures, actually, those individuals 
who provided concrete services to assist them, either to 
maximize their independence, or to become employed, or both.
    Ms. Herseth Sandlin. Well, I appreciate that explanation of 
the calculation and I certainly understand the importance of 
having identifiable measurements. Just a couple more questions 
before I turn it over to counsel to see if there are any 
further questions that are specific, again, to ILP. In fiscal 
year 2007, the VA Secretary stated that VR&E anticipates a 
steady increase in the demand for ILP services over the next 10 
years. My questions are, can you tell the Subcommittee today 
how the VA proposes to meet that increase over the next 10 
years? Are you going to need more funding and personnel? Are 
there any internet technology issues or concerns we should be 
made aware of that would facilitate the delivery of the 
services your program provides?
    Ms. Fanning. Well, we have been very fortunate to have the 
support of Congress in providing resources to us. Currently our 
caseload has decreased to the point of what we consider, what 
has been considered the ideal level, that being----
    Ms. Herseth Sandlin. What is that?
    Ms. Fanning. One-to-125 ratio. And currently we are about 
1-to-121 ratio. We are actively doing outreach. If we get more 
veterans enrolled into our program, I think that is a very good 
thing. I think it is a very robust and excellent program that 
provides good services. And I trust that if we need more 
resources and our caseload starts to grow that that will be 
taken care of and we can let, I can let my leadership know and 
communicate with Congress. You know, at this time I think we 
are equipped to provide services and we are equipped to bring 
more veterans onto our rolls.
    Ms. Herseth Sandlin. Well I would like to say I would like 
to hope that you could count on that support. I do think, 
however, that we are going to have to dig a little deeper and 
get some additional information from you. Some of the questions 
that we will give you following the meeting for the record, you 
may have readily available or they may just give you some ideas 
on what could be tracked to kind of help us understand a little 
bit better how this program is working and being administered. 
The final two questions, and this is sort of along that line. I 
know we talked, again, the cap and where you have been, about 
2,300. How many veterans, in fiscal year 2007 were recommended 
for ILP? I know you said they do not apply, but this is what I 
really want to get at because I think Mr. Boozman had some of 
the same questions about the influence of the cap. This number 
has a potential influence for making decisions about the cap. 
Do you track or can you provide the total number of veterans 
who in fiscal year 2007 were recommended for ILP? And then the 
breakdown of those that were recommended? How many applications 
were approved and how many were not?
    Ms. Fanning. I do not have the data with me. But I, what I 
can break down is how many veterans were found infeasible and 
of those which veterans were provided independent living 
services.
    Ms. Herseth Sandlin. Okay. Let us start with that. Okay. 
One last question, according to the audit, a Vocational 
Rehabilitation and Employment Operations Report, in fiscal year 
2006 the cap was underutilized, which I think you have also 
documented for the past 3 years. We have been at 2,300 so we 
have 200 cases there that could be added. But that audit also 
indicated that it found that services to the veterans were 
delayed. Clearly we heard Mr. McCartney's experience in terms 
of the delay and lack of responsiveness. Do you have any idea 
of the timeliness of any responses whether before you came on 
board or whether your predecessors addressed it? Or how you may 
have addressed that report, that might have been specific 
causes of such a result? You do not need to address the 
underutilization. I think you have done that already. But what 
about any delays in those services for the VR&E operation in 
general?
    Ms. Fanning. Well, first I would like to say that the 
delays that Mr. McCartney experienced are unacceptable. And my 
hope is that we dig in, and we are doing, as I said, special 
independent living reviews as a part of our quality review 
process, and that his situation is not typical of what we will 
find. And the reason we are doing the reviews, however, is to 
look for situations just as he described so that we can take 
corrective action if it does occur. I am sorry, repeat your 
question?
    Ms. Herseth Sandlin. Well I think submitting any 
information about delays, since we do not know if there was a 
quality assurance visit down to that particular office. I 
understand from your testimony that you are stating that Mr. 
McCartney's experience is not the typical one. But when you do 
see delays in service, have you been able to identify any 
specific causes for that? Has it been in the past that Congress 
was able to allocate additional resources when the caseload was 
too high? Is there a lack of sufficient staff in the Central 
Office overseeing and monitoring the Program? A lack of the 
linkages with the community organizations that can help address 
that specific veterans' employment and independent living 
needs? Have you been able to identify any specific causes for 
delays?
    Ms. Fanning. Well, certainly I think providing the standard 
operating procedures, providing guidance from the Central 
Office level, was done in recognition of the field being 
primarily focused on providing employment services, and the 
rate of independent living being so much less that obviously 
the counselors would have less expertise in the independent 
living area. So we have tried to mitigate that and correct that 
by providing the SOP and extensive training. We have added an 
Independent Living Coordinator in Central Office after the task 
force recommendations were released. And since I have arrived, 
we have added a second person. Because we found that that 
expertise has been very valuable to the field. They need 
someone who they can come in to for expert advice. And also, we 
need folks we can send out on quality site visits to really 
take a look at independent living services in various field 
offices as we go out to do those reviews.
    In terms of any delays, I think as one of the previous 
panelists had mentioned, caseloads or staffing shortages could 
certainly play a role in an office if that is present, if they 
have shortages. Over the last few years, the caseload size 
gotten more into the appropriate realm in terms of what was 
considered ideal as a result of being able to enhance staffing. 
The Independent Living Program, getting a plan started itself, 
does take a little bit longer because during the entitlement 
process when the counselor completes the entitlement and 
determines that the veteran is not feasible to pursue 
employment, then a second tier of evaluation occurs. We do a 
comprehensive independent living needs assessment. As I 
mentioned earlier, that is done in the veteran's home. It can 
involve expert advice from rehab engineers or other folks with 
expertise, depending on what the veteran's needs are. 
Unfortunately, even though that is very needed in order to 
identify appropriately what the needs are and the services, 
that does add additional time.
    Ms. Herseth Sandlin. Mr. Brinck, did you have any 
questions?
    Mr. Brinck. Thank you, Ms. Chairwoman. Ms. Fanning, 
Sergeant First Class McCartney mentioned several names of 
friends of his who were disabled veterans seeking ILP services. 
Would you get those names from him? Mr. Boozman has asked that 
you get those names and provide us with the status of each of 
those cases, if you would, please.
    [The following was subsequently received from the VA:]

        The information requested is of a sensitive nature and is being 
        provided under separate cover to the Chairwoman and Mr. 
        Boozman.

    So as a follow on to the Chairwoman's last question, what 
is the average time it takes to complete the evaluation and 
independent living plan?
    Ms. Fanning. Currently the average time for evaluation and 
planning is 105 days.
    Mr. Brinck. Nationally.
    Ms. Fanning. Nationally. And that is in in line with the 
target for the field, which is also at 105 days.
    Mr. Brinck. And the Savannah satellite office, do you have 
data on them?
    Ms. Fanning. I do not.
    Mr. Brinck. Can you provide that for us in terms of 
caseload and average time to complete the plans?
    Ms. Fanning. I can provide information about the Atlanta 
Regional Office, which covers all of Georgia. I do not know if 
I can provide specifically information about Savannah. But I 
will take that for the record.
    [The following information from VA was subsequently 
received:]

        VR&E Service conducted a site visit in June 2007 at the Atlanta 
        Regional Office (RO). The Savannah outbased office was not 
        visited, but the site visit report indicated the Atlanta RO was 
        performing well overall. At that time Savannah had three case 
        managers and an average caseload of 142 each. Savannah 
        currently has four case managers with an average caseload of 
        110 each.

        In FY08, the average number of days a case was in evaluation 
        and planning status for the Atlanta office was 93. The FY08 
        target was 105 days.

    Mr. Brinck. All right. Thank you. One final question, do 
you have an estimate, in your testimony you of course stated 
that you had not bumped up against the cap for the last couple 
years. But a little later on you mentioned that there were 
possible influences that may increase the requests for IL 
services. Do you know, do you have an idea of what the cost 
would be to remove the cap? Or to put it another way, what is 
the cost for, an average cost per IL Program participant?
    Ms. Fanning. Currently the average cost of an IL program is 
approximately $11,000. I do not have costing on removing the 
cap. That is something I would be happy to take for the record.
    [The following information from VA was subsequently 
received:]

        Because we are not currently exceeding the cap, no cost would 
        be associated with removal of the cap. If workload increases in 
        the IL program, historical costing data would be utilized to 
        calculate the increased cost to fund the IL program:

                <bullet>  FY2006--$10,500 average cost per IL case
                <bullet>  FY2007--$11,545 average cost per IL case
                <bullet>  FY2008--$12,640 average cost per IL case

    Mr. Brinck. Thank you. Thank you, Madam Chairwoman.
    Ms. Herseth Sandlin. Thank you. Well, thank you for your 
testimony and for your responsiveness to our questions today. 
We will look forward to working with you to get some of the 
additional information we have requested for the record. We 
thank both Dr. Beck and Dr. Burris for joining you as well and 
the Committee staff and counsel, as well as the Members of the 
Subcommittee. We look forward to working with all of you, as 
well as those that testified previously. Thank you for your 
patience and for taking the time. I know votes have a tendency 
to slow us up in the afternoon hearings that we have. We really 
do value your expertise, your insights, and your service to our 
Nation's veterans and the work that you are doing. Again, thank 
you, the hearing stands adjourned.
    [Whereupon, at 4:27 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Stephanie Herseth Sandlin, Chairwoman,
                  Subcommittee on Economic Opportunity
    Today's hearing will give the Subcommittee the opportunity to learn 
more about the Department of Veterans Affairs Vocational Rehabilitation 
and Employment's Independent Living Program and how it is assisting our 
veterans in a seamless rehabilitation into family and community life.
    As many of you know, the goal of the Independent Living Program is 
to ensure that eligible disabled veterans are able to maintain maximum 
independence in their daily living by developing learned skills that 
may benefit them for future employment. Some of our panelists might 
recall that this Subcommittee held its first hearing back in March of 
last year that gave our new members the opportunity to learn about the 
programs under our jurisdiction. One such program that was considered 
was the Vocational Rehabilitation and Employment, but today we are here 
to specifically review the Independent Living Program.
    As we will hear from our panelists, many of our most severely 
disabled veterans' lives have been profoundly changed for the positive 
as a direct result of these independent living services. Unfortunately, 
members of this Subcommittee have also heard from veterans that have 
raised concerns that VA staff is poorly trained to properly refer 
veterans to available resources, mismanagement of claims by VA 
personnel that causes a delay in service, and need to increase the 
current statutory limit of 2,500 annually.
    Earlier this year, we have received a letter from a veteran who 
urged the full Committee Chairman to consider reviewing independent 
living services for veterans with chronic and severe post traumatic 
stress disorder. Specifically, this veteran would like to see an 
expansion of independent living services to provide Operation Iraqi 
Freedom and Operation Enduring Freedom veterans with opportunities for 
employment services that can also benefit older veterans who have 
service-connected psychiatric disabilities. I am interested in hearing 
from our panelists about this and other suggestions to determine how we 
can best serve all our veterans, especially in light of the Department 
of Veterans Affairs Office of Inspector General's report dated December 
17, 2007.
    A few of the issues of concern raised in this report include:

    <bullet>  VR&E rehabilitation rate calculations and information on 
total program participations and outcomes were not fully disclosed in 
the VA Performance and Accountability Report;
    <bullet>  the 2,500 statutory cap was underutilized in fiscal year 
2006 and services to our veterans were delayed; and
    <bullet>  the VA should effectively monitor the number of new 
Independent Living participants and detailed information should be 
provided to Congress for review.

    It is very important that we examine these concerns, especially at 
a time when the VA Secretary recognizes an increased need for 
independent living services over the next 10 years. Today's 
servicemembers are returning with Post Traumatic Stress Disorder, 
Traumatic Brain Injury, amputations and severe burns that would have 
been fatal in previous conflicts.
    Congress must continue to reexamine the development and results of 
this program to provide the best services in a timely manner. The men 
and women who serve our Nation honorably deserve and should receive the 
best our country can offer.
    I look forward to working with Ranking Member Boozman and Members 
of this Subcommittee to explore how we can improve the VA's Independent 
Living Program for our servicemembers and veterans.

                                 <F-dash>
  Prepared Statement of Hon. John Boozman, Ranking Republican Member,
                  Subcommittee on Economic Opportunity
    Good afternoon. Madam Chairwoman, I think the first order of the 
day is to thank both members of our first panel for their service. I 
believe both Mr. Lancaster and Mr. McCartney are service-disabled 
veterans of the Vietnam War and they honor us with their presence here 
today.
    Madame Chair, I believe you and I would agree that VA's Vocational 
Rehabilitation and Employment program should be the crown jewel of 
programs for disabled veterans. The program is generous in its benefits 
and the law provides the VR&E staff with wide latitude in determining 
who qualifies for the program. It is important to note that employment 
is the goal of the VR&E program and for the vast majority of those who 
participate in the program, a job is reasonable and achievable.
    Unfortunately, for our most severely injured, employment is 
sometimes not an option so the VR&E program includes independent living 
services for those who cannot work because of their service-connected 
disability. Such a program is ``designed to enable such veteran to 
achieve maximum independence in daily living'' and VA may contract for 
these services with qualified providers.
    Title 38 defines ``independence in daily living'' as, ``the ability 
of a veteran, without the services of others or with a reduced level of 
the services of others, to live and function within such veteran's 
family and community.'' That is a fairly broad definition and I would 
hope that Ms. Fanning would describe how her staff determines what fits 
within that definition.
    I want to make a point about one way we judge the program's 
performance. As an example of the difficulty we face in using VA data 
to determine the program's performance, I would call your attention to 
the latest VBA Annual Benefits Report. On pages 77 and 84, the report 
shows 884 veterans receiving independent living services and on page 86 
the data shows 949 participants and 2,957 veterans rehabilitated. 
Clearly, the inconsistency between the number of participants and the 
number of those rehabilitated as well as the two different amounts of 
participants does not give us a clear understanding of how the program 
is doing.
    Finally, I am glad to have Mr. Lancaster, Executive Director of the 
National Council on Independent Living with us today. I understand that 
the National Council on Independent Living is not represented on the 
Secretary's Advisory Council on Rehabilitation. It seems to me that 
NCIL should be a member of the Committee because of their broad 
experience in independent living and I urge Secretary Peake to invite 
NCIL to become an active member in his advisory Committee.
    I yield back.

                                 <F-dash>
                 Prepared Statement of Bruce McCartney,
                          Midway, GA (Veteran)
                           Executive Summary
    I enrolled in the VA Independent Living Program (ILP) in November 
2003. Four plus years later, after constant emails, phone calls and 
inquiries, the process was completed.
    Many other disabled veterans (Vietnam and OIF) are having similar 
issues as the ones I faced trying to get assistance with the ILP. The 
issues appear to be lack of understanding of the program by local case 
managers, lack of transparency (where is the paperwork in the process), 
lack of assistance (took months to get a reply), lack of oversight and 
auditing (took over 4 years to complete this application and that does 
not include a proper post-project dialog) and pass the buck syndrome 
(inquiries to higher command are met with auto reply emails/letters 
that led to no solutions).
    The issues with ILP appear systemic as the Director's office, The 
Inspector General's Office, Regional Headquarters, and local case 
managers either can not provide adequate answers to the veterans they 
are assisting or do not respond to inquires for assistance.
    The ILP is a great concept, but is poorly advertised and has weak 
follow through; much like a train that has to be pushed by its 
passengers.

                                 ______
                                 
    My name is Bruce McCartney. In 1986 I was medically retired from 
the United States Army under Chapter 61 after 17\1/2\ years of active 
duty service. I served four tours in Vietnam as a DUSTOFF and combat 
medic. It was my job to go to the wounded soldier who'd walked into a 
mine or was laced across the gut with an AK-47 and try to keep them 
alive until we could get them to the hospital. I wasn't always 
successful, but more often than not death was cheated of another 
victim.
    There seemed to be little trained and experienced assistance 
available to transition the disabled combat veteran from military 
service to civilian life, although today that appears to be vastly 
improved. On the 15th of January you're a HERO, on the 16th of January 
you're a ZERO unaware of the myriad of programs available from the VA 
to assist your broken body and soul. To try and regain some semblance 
of normalcy to a life that was disrupted by the bane to mankind we know 
as war was relegated to fate. If, per chance, you met or heard about a 
veteran who had acquired a particular VA service or program then you 
applied. Other than that, there was not much assistance offered by many 
of the VA counselors or employees.
    I am one of the fortunate. Or so I thought. Had I known when I 
applied for the Independent Living Program (ILP) in November 2003 that 
it was leading me head-on into a 4 year nightmare that would affect me 
both mentally and physically, I would not be testifying before this 
Committee.
    In 1990, I was advised by the Savannah Vet Center to apply for Voc 
Rehab services. I met with a case manager, was aptitude tested and 
advised to seek a vocation as a teacher or registered nurse. With my 
experience in combat medics he recommended the nursing course. 
Unfortunately, due to my disabilities, my education was sporadic at 
best and disruptions were the norm. After many counseling sessions with 
him his final statement (in 1995) to me was, ``if you ever get 
straightened out, come back and see me.'' I languished for years 
outside the VA system, much like untold numbers of disabled veterans 
even as we speak.
    October 2000, fate knocked on my door. It was during the filming of 
the documentary ``In The Shadow Of The Blade'' that I was reunited with 
my friend and fellow DUSTOFF medic from Vietnam, Jake Bailado. He told 
me about a cousin who was also a disabled Vietnam veteran who applied 
for ILP. They assisted him in obtaining a small tractor to help him 
work his farm.
    After several years of continuous treatment with a civilian 
therapist, I met with Voc Rehab counselor Tina Hutchison in Savannah to 
apply for ILP. My goal was to see if VA could assist me in obtaining an 
interest free loan to replace my antiquated tractor so I could 
cultivate my 9 acre property. Ms. Hutchison advised me that my goal was 
out of the question, but ILP would in fact assist me with acquiring a 
greenhouse.
    The following is a 4 year recap of my ILP gone awry:

        Nov 03--Met with VR&E counselor (Tina Hutchison) in Savannah, 
        GA. Applied for Independent Living Program (ILP).

        1/26/04--Got email reply saying `wheels in motion.'

        3/2/04--Requested situation report (SITREP).

        5/5/04--Received reply to the above request (almost 2 months to 
        the day) `I have contacted an ILP contractor to come to this 
        area and do an ILP assessment for 3 vets, including you. . . .'

        6/23/04--Interviewed with Jennifer Johnson, ILP contractor from 
        Atlanta.

        6/24/04--Provided email response to Johnson's request for more 
        info.

        7/27/04--Received email request for a SITREP from Johnson.

        7/27/04--Replied to above from Johnson. `I sent my report to 
        Tina Hutchison several weeks ago. Now it's in the hands of 
        Tina. . . .'

        12/20/04--Received phone call from Hunter Ramseur (another VA 
        consultant from Atlanta who figured he'd get some interviews 
        done while in Hilton Head Island, SC). He came to the house for 
        interview. Hunter requested some documents with a promise to 
        return them upon his arrival to Atlanta. Have yet to receive 
        them.

        3/4/05--Telephonically requested SITREP from Hutchison. Her 
        reply--`just got new guidelines, will know something very 
        soon'. Also advised her about documents given to Ramseur not 
        returned. Hutchison promised to get in touch with him and have 
        them returned.

        5/16/05--Emailed Hutchison a request for SITREP. Also advised 
        her still nothing back from Ramseur.

        9/22/05--No contact from anyone (VA or consultant) for more 
        than 6 mos now since telephonic conversation 3/04/05. Emailed 
        Hutchison a request for SITREP.

        12/5/05--Still no contact from anyone. Emailed Hutchison. 2nd 
        anniversary has now come and gone. Is there really an IL 
        program? Is Hutchison still working in Savannah? Hello. Is 
        anyone out there?

        12/6/05--Emailed complaint to Inquiry Routing & Information 
        System (IRIS).

        12/6/05--Received email from Hutchison. `sorry . . . have 
        scheduled appointment for 15 Dec.'

        12/7/05--Receive response from IRIS above. ``after discussing 
        your case with Ms. Hutchison, she reports that due to her 
        current caseload it has been difficult to complete a specific 
        proposal for your ILP and meet other demands on her time. She 
        now has the information from the 2 contractors. . . .''

        12/7/05--Replied to Ms. Hutchison email `0900 will be fine.'

        12/15/05--Arrived in Savannah VA office at 0850 for appt. 
        Checked in with front desk. At 0930 Ms. Hutchison asked if I 
        have an appt. Felt like another bs meeting. Was given another 
        orientation sheet (NOTE: orientation sheet is given to all 
        first time VA applicants). Told me Hunter had recommended 
        concrete floor greenhouse with elec/water/etc. Now she had all 
        the recommendations she would forward to whomever to get final 
        approval.

        2/2/06--Emailed MS. Hutchison asking for SITREP.

        2/7/06--Sent another inquiry to IRIS again--no reply.

        2/21/06--Sent another inquiry to IRIS about 2/7/06 inquiry.

        2/22/06--Received reply from IRIS. ``. . . request has been 
        sent to Mr. Ramseur to provide information . . . I encourage 
        you to keep in contact with Hutchison. . . .''

        2/23/06--Responded to IRIS's response. ``. . . after I met with 
        Hutchison 15 dec she told me she had ALL the paperwork she 
        needed . . . and I have sent Hutchison 10 emails with only 2 
        replies and 3 phone messages--0 returned. . . .

        2/24/06--Emailed Hutchison with the information outlined in 
        IRIS response of 2/23/06.

        2/24/06--Received email from Hutchison stating she had 
        contacted Ramseur (AGAIN?) for the info from him.

        2/27/06--Received followup from IRIS. ``she is communicating 
        with you directly . . . please continue to work with her to 
        complete a plan of service.''

        3/27/06--Emailed Hutchison requesting SITREP--``we are going on 
        just about 2\1/2\ years since this process was started and I 
        think that's a little excessive.''

        3/31/06--Received email from Hutchison. ``Proposal has been 
        sent to Atlanta for review/approval . . . am looking primarily 
        at the 8, <greek-e> 10, size range. . . .''

        4/1/06--Replied to Ms. Hutchinson email acknowledge receipt of 
        her email of
        3/31/06. Requested copies of Johnson/Ramseur reports. 1st 
        request for Johnson/Ramseur reports.

        5/11/06--Emailed Hutchison for SITREP and 2nd request for 
        Johnson/Ramseur reports.

        5/19/06--Received email from Hutchison ``final approvals have 
        been received. I am looking for providers and contractors. . . 
        . Request for information from your file have to go through the 
        freedom of information office in Atlanta and must be in 
        writing. If you need I can get you an address.''

        5/19/06--Emailed Hutchison for address. 3rd request for 
        Johnson/Ramseur reports.

        6/6/06--Since received no reply with address, sent written 
        request for information from my file to Ms. Hutchison office 
        via certified mail. 4th request for Johnson/Ramseur reports.

        6/7/06--Ms. Hutchinson's office received certified mail on 1:55 
        pm, June 07, 2006 per USPS.

        7/28/06--No reply in over 60 days. Emailed Hutchison again for 
        information/address. 5th request for Johnson/Ramseur reports.

        7/28/06--Received email from Hutchison ``I'm off on Monday so I 
        will call you on Tuesday.''

        7/31/06--Stayed in-house all day to receive call. Call never 
        came.

        8/1/06--While at a doctor's appt, Ms. Hutchison calls and 
        leaves msg, ``I'm returning your call.''

        8/2/06--Emailed Ms. Hutchison again ask for SITREP and status 
        of requests for Johnson/Ramseur reports. 6th request for 
        Johnson/Ramseur reports.

        8/7/06--Emailed Hutchison ``did you forward the request for 
        consultant reports I sent you--7th request for Johnson/Ramseur 
        reports.

        10/30/06--Met with Congressman Barrow's Legislative Assistant 
        in Savannah regarding lack of response with VA ILP.

        10/30/06--Upon return from Congressman Barrow's LA called VR&E 
        Regional office in Atlanta. After short recap of situation, was 
        advised to FAX a request for another voc rehab counselor if I 
        was unhappy with Ms. Hutchison. With that answer it appeared to 
        me the problem was not only with Hutchison but in fact was 
        systemic (approx 3 years of issues with no real answers from VA 
        counselor, IRIS, and ATL regional office).

        10/30/06--Mailed request IAW FOIA to VR&E Regional office, 
        Atlanta, GA. This is the same request asked of Hutchison on 7 
        previous occasions (via cert mail).

        11/6/06--Mailed entire 40+ page packet of entire experience 
        with ILP to VA Inspector General (IG).

        11/9/06--Certified mail delivered Decatur VR&E office 7:47am, 
        11 NOV 06.

        12/12/06--Received phone call from Congressman Barrow's LA. 
        Says he was advised that since some of my disability is for 
        PTSD, VA will not release any information from my files to me, 
        but will release them to my therapist.

        12/12/06--Advise Karla Hillen (therapist of 7 years) of 
        situation. She requested I sign release of records form. Went 
        to her office and sign forms.

        12/13/06--Therapist requested release of info from Hutchison/
        regional office.

        1/26/07--Received call from Ms. Hutchison. Says got final 
        approval (AGAIN???) and is going to turn entire packet over to 
        Hunter Ramseur when he comes to Savannah next Tuesday. He will 
        again come out to house for prelim survey, negotiation and 
        coordination for project completion. Additionally she states 
        she will mail me documents for signature/return. . . .

        1/29/07--Received packet from VA IG. ``Unfortunately, we are 
        unable to take action on your correspondence as it is unclear 
        exactly what you are alleging and why you are requesting OIG 
        involvement. We ask that you summarize the 48 pages. . . .''

        2/5/07--Received call from therapist. They've received Johnson/
        Ramseur reports. Received 11 pages via fax. Both reports 
        recommendation similar. Still no word from Ramseur. Included is 
        application approval from Grant Swanson VR&E Regional Office. 
        DATED 4/3/06. NOW ALMOST 1 YEAR SINCE APPLICATION WAS APPROVED 
        WITH STILL NO ACTION BEING TAKEN; 3 YEARS PLUS SINCE INITIAL 
        APPLICATION WAS SUBMITTED.

        2/15/07--Haven't heard a word from Hutchison or Ramseur. 
        Received nothing in mail from Hutchison. Will fax summary back 
        to IG office today.

        2/15/07--Faxed summary back to IG office.

        2/19/07--Johnson/McCartney/Singleton (another veteran having 
        problems with ILP) met with Congressman John Barrow in his 
        Savannah office. This and other veteran issues are discussed. 
        Congressman agreed to provide letter of endorsement on package 
        to be sent to veteran affairs committee members.

        3/1/07--Received email from Ms. Hutchison asking if I received 
        paperwork she allegedly mailed for signature/return.

        3/1/07--Replied to Ms. Hutchison's email ``on 1/26/07 you 
        stated Ramseur would be picking up packet and would be in 
        contact with me. Also that you would mail documents for 
        signature. I have not heard from Ramseur or received anything 
        from you.''
        3/2/07--Ms. Hutchison read above email (according to Read 
        receipt on email).

        3/18/07--Received letter from IG. `We have opened a case. . . .

        4/3/07--NOW ONE YEAR ANNIVERSARY OF APPLICATION APPROVAL FROM 
        ATLANTA (4/3/06) AND STILL NOTHING.

        4/12/07--Received call from Ramseur stating he was just given 
        case file and would like to come down to meet getting the 
        project underway. I asked him why it took him so long to get in 
        touch he wasn't sure to what I was referring. Then I advised 
        him that on 26 Jan 07 Hutchison called me and advised he would 
        pick up my packet from her in be in touch shortly. He assured 
        me he had no such knowledge thereof and in fact had just been 
        contacted by the Director to take over this project and get 
        completed ASAP.

        4/16/07--Receive letter from L.R. Burks dtd 4/10/07 apologizing 
        for the delay and provided excuses for what had (actually had 
        not) transpired. Stated that procedures were put into place to 
        prevent future occurrences.

        4/18/07--Replied to Burks letter.

        4/24/07--Received reply from Burks ``. . . respond more rapidly 
        more effectively to your needs as well as other veterans. . . 
        .''

        SEE ALL EMAILS FOR UPDATE.

        12/3/07--1405 hrs, Received message on answering machine from 
        Amy Thompson, assistant VR&E director in Atlanta.

        12/3/07--1520 hrs, Returned call and left msg on voice mail.

        12/4/07--0810 hrs, Returned call and left msg.

        12/4/07--1030 hrs, Returned call and talked to Amy. She stated 
        she would like to help me address some of the concerns I 
        addressed to Director Fanning. Gave a recap and sent her copy 
        of my recap. She will read and call back.

        12/4/07--1710 hrs, Amy calls and again apologize for shoddy 
        treatment. States one thing for certain ``authorization for 
        payment for electrician was completed today and he should 
        receive payment in 7-10 days.'' I find this incredulous because 
        I have email from Hunter Ramseur 11/16/07 stating the same 
        thing. APPARENTLY SOMEONE IS NOT DOING THEIR JOB AND TELLING 
        FALSEHOODS TO COVER IT UP . . . AGAIN . . . Sent copy of 
        Hunter's email to her. She explained that apparently someone 
        doesn't understand the payment process is a 2 step process--
        Step 1 Approve at Regional Office. Step 2 Forward to Austin for 
        payment. SEEMS TO ME IN ALL ACTUALITY IT'S A 3 STEP PROCESS. 
        Step 1 Approve at Local Office. Step 2 Approve at Regional 
        Office. Step 3 Forward to Austin for payment. Not withstanding. 
        Why does it take 50+ days to process an invoice for payment?

        And another question. First email from Hunter is 10/26 stating 
        invoice for Robinette is at the Regional Office for processing. 
        . . .

        Author's note: It appears Director Fanning has requested an in-
        house investigation to address the problems I outlined to her. 
        I really believe it's going to take an upper echelon visit to 
        look into not only what I addressed, but really come down and 
        open this Pandora's box. Who knows how many veterans are 
        affected by this malfeasance. The Regional Director L.R. Burks 
        told me in his last letter that all problems had been addressed 
        and corrective actions taken to preclude further occurrences. 
        Apparently that is not true.

        Amy Thompson called veteran Singleton 12/3/07 and states she 
        couldn't find his records but would call him back. 12/7/07 Vy, 
        clerk in VR&E office, called him back and stated Amy was out of 
        office. Also stated she couldn't find his records but would 
        call him back Monday 12/10/07 to talk again.

        12/27/07--Sent Thompson an email inquiring as to whereabouts of 
        $$$$$ 7-10 days from Dec 4th makes Dec 18th. Is someone lying 
        again?

        1/25/08--Received call from Grant Swanson . . . tries to 
        justify (we process thousands of pieces of paper yearly and 
        occasionally one falls thru the crack . . . this ENTIRE case 
        has fallen thru the crack repeatedly.

        Asks to get copy of Robinette invoice (invoice for the 
        electrician). I faxed to him. Grant stated that I am trying to 
        be a surrogate in-between Robinette and the VA . . . Amy, 
        deputy director VR&E, stated that I or Robinette should contact 
        Finance directly and thus, made me a surrogate in her last 
        email. . . . I never talked to finance, but sent a followup 
        letter to Ruth Fanning and Congressman Filner. Isn't this 
        VR&E's job to ensure that the contractors get paid? Says 
        doesn't know if there's anything that can be done but will try 
        . . . my thoughts . . . SOMETHING WILL BE DONE . . . it was 
        still in excess of 30 days when I PAID him.

        * All emails and correspondence available upon request. 
        Approximately 80 pages.

    Nearing project completion, another roadblock to completing my ILP 
project develops at VA Regional Office. Contractors who complete work 
are not being paid according to their purchase order contracts. 30 days 
then 60 days pass and still no payment for services rendered. Having 
worked with these contractors, been the recipient of their services, 
and having developed a relationship with them, morally I just could not 
sit idly by. I took out a line of credit loan and pay them, which they 
returned when they were finally paid by VA. Three contractors, one ILP 
project, all not paid as contracted. Then, instead of correcting the 
situation, I am chastised by the Regional office and Director Fanning's 
office for `interfering'. I can sleep at night though. However now 
there are three contractors who will never work for VA again.
    During my ordeal I met several disabled veterans who also needed 
and were qualified for the ILP. I urged them to apply, but seeing the 
difficulty I was having and how it was affecting me physically and 
mentally they opted to wait see if in fact there was an ILP. It just 
wasn't worth their well-being to go through what I was going through. I 
had to agree with them.
    Once work was finally begun in April 07 and I shared with them the 
correspondence from the Atlanta Region Director, L.R. Burks, 
highlighting the changes that were made to prevent future occurrences, 
did they apply for ILP. Unfortunately, it appears Director Burks was 
only paying lip-service to quiet this vet, for the same problems I 
encountered are still being encountered by disabled veterans as we 
speak.
    Disabled 101st Airborne trooper Donald S. went to the Savannah 
Outpatient Clinic (OPC) in mid April 07 to obtain an application for 
ILP services. He was given VA Form 28-1900, completed and mailed it to 
VA regional office as instructed. In August, after no contact, he 
called the VA regional office in Atlanta and subsequently received a 
letter from that office stating they had received his application. 
Shockingly they also stated he would have to complete VA Form 28-1900 
before any action could be taken. I'm curious how many VA Form 28-
1900's have to be completed before action is initiated? In November he 
called again to determine status. He was advised that a query was sent 
to St. Petersburg for his records. The response to his question asking 
whether or not they would follow up was answered with ``we'll just wait 
for them to respond, but you can contact them if you wish; here's the 
phone number.'' He did their work by calling and was told that office 
had received nothing from Atlanta.
    Also, 100 percent-disabled 1st Cav, Silver Star (2 awards) 
recipient James Johnson obtained, completed, and submitted VA Form 28-
1900 in April 07. In January 08, after no response, he again went to 
Savannah OPC for another form. He was advised by a case manager it was 
best to complete the application via the Internet. He stated he would 
rather have a paper copy to take home for completion and submission. He 
was then asked ``what, are you computer illiterate?'' Becoming 
extremely frustrated and agitated, Mr Johnson informed the case manager 
that he was partially blind from 14 glaucoma operations and wanted a 
paper copy. Only then was he provided same.
    Just recently, February 08, disabled vet Larry Bacon applied for 
ILP due to his disabilities. Just several weeks ago he had an 
appointment with his case manager, Steve Goist. This case manager 
advised this disabled vet that according to his records Mr Bacon was 
unable to be gainfully employed. Since Voc Rehab was designed to get 
vets back to work there was nothing he could do for him. Mr Bacon told 
this case manager he was aware of his inability for conventional 
gainful employment and had applied for ILP. Mr Goist stated he ``would 
see what I can do and let you know.'' Of course, this is yet another 
disabled veteran who is expecting to never hear from VA again.
    Iraq veteran Santiago, a double amputee, was out briefed by a VA 
counselor on Fort Stewart. He was told to apply for Voc Rehab. As a 
result of his disabilities Voc Rehab was not a viable option. I met him 
recently and thought he was a good candidate for ILP. He had absolutely 
no knowledge of ILP and told me of his out-processing experience by VA. 
When I called and inquired about ILP with the VA representative on Fort 
Stewart who was responsible for providing guidance to medically 
discharged combat veterans, I was told ILP was ``some sort of medical 
thing and I should call the Charleston Medical Center for 
information.'' She did provide me with their phone number though.
    Fortunately when a staffer from Director Fanning's office was 
informed of the first two cases I described in January 08 a phone call 
was placed and immediate attention was provided for these two disabled 
vets. Should disabled veterans like Bacon, Santiago, Potane, Baker, 
Frank, Foster, and others have to make that same call to receive the 
benefits they paid for with their blood? Many of these vets and others 
have opted to just give up. THE SYSTEM IS BROKE. Director L.R. Burk, 
your promises of change weren't worth the paper they were written on.
    These are just a couple of disabled veterans I happened to come in 
contact with. The repeated experiences mirror each other. How many 
other untold numbers of disabled vets need advocates, to get the VA to 
do their job?
    As I network with other disabled veterans and encourage them to 
apply for their ILP, a benefit which they earned with their broken body 
and sometime spirit, I realize that not one iota has changed. Delays, 
failure to respond to emails, conveniently ``lost'' paperwork, and 
unreturned phone messages are the rule rather than the exception. THE 
PROBLEM IS SYSTEMIC, from the Director's office, the Inspector 
General's Office, to Regional Headquarters, down to local case 
managers.
    After meeting several disabled veterans from South Carolina, I soon 
realized the problem is worse there. After contacting the Regional 
offices in Charleston and Columbia I'm told by both that ``most 
disabled vets aren't qualified for ILP'' and ``we process very few 
ILP's.'' This makes me believe the South Carolina ILP program is worse 
than what is being experienced in Southeast Georgia. A repeated inquiry 
to Director Fanning's office to determine the number of ILP's in 
Georgia and South Carolina is ignored.
    Perhaps this Subcommittee can obtain information Region by Region 
to determine where the most severe problems exist. And believe me there 
are problems. Malfeasance is being overlooked daily while consequences 
of ineptitude are being suffered by many disabled veterans.
    Many years ago, in the rice paddies of Vietnam, I aided the 
wounded. Now these many years later I have vowed to advocate for these 
my wounded brothers yet again. However, it has become a formidable task 
that needs Congressional involvement. As American veterans both young 
and old have fought for you, we need you to fight for us.
    Thank You.

                                 <F-dash>
                Prepared Statement of John A. Lancaster,
       Executive Director, National Council on Independent Living
                           Executive Summary
    The National Council on Independent Living (NCIL) will provide 
testimony regarding Independent Living and the current services within 
the Veterans' Administration Vocational Rehabilitation and Education's 
Independent Living Program (ILP).
    The National Council on Independent Living is the oldest national 
cross-disability, grassroots organization run by and for people with 
disabilities.
    Centers for Independent Living across the country are assisting 
veterans in navigating the VA system, obtaining housing, and personal 
assistance services, and are providing information and referral.
    Centers for Independent Living want to collaborate actively with 
the VA. Centers have asked for more funding to be allocated to help 
assist the VA in providing essential and timely services to veterans 
and their families.
    Centers in Alaska, Minnesota and Michigan are working with their 
communities to make sure our veterans are receiving the proper supports 
to reintegrate into their communities.
    Centers for Independent Living have been focusing on one-on-one 
support to assist people with disabilities in outlining their future 
goals, learning that there is a way to have a high quality of life with 
a disability, and creating a support network within the community to 
ensure continued independence.
    Centers for Independent Living and NCIL are on record requesting 
additional funding to be allocated to help assist the VA in providing 
essential and timely services to veterans and their families.
    NCIL and our Veterans Taskforce welcome the opportunity to discuss 
how Centers for Independent Living can help the Department of Veterans 
Affairs and the Vocational Rehabilitation Employment program enhance 
services for our Nation's returning and aging veterans.

                                 ______
                                 
    Chairman Filner, Ranking Member Buyer, and distinguished colleagues 
of the Committee on Veterans' Affairs, thank you for this opportunity 
to comment on VA's Independent Living program. My name is John 
Lancaster and I am the Executive Director of the National Council on 
Independent Living.
    The National Council on Independent Living is the oldest national 
cross-disability, grassroots organization run by and for people with 
disabilities. Founded in 1982, NCIL is the association representing 
Centers for Independent Living (CILs) and statewide Independent Living 
Councils (SILCs), which provide independent living services and 
advocate civil rights of people with disabilities throughout the United 
States.
    A majority of our Centers for Independent Living and statewide 
Independent Living Councils receive federal funding under Title VII of 
the Rehabilitation Act, administered by the Rehabilitation Services 
Administration of the Department of Education.
    Centers for Independent Living serve our Nation in all but five 
Congressional Districts. These Centers are non-residential, cross-
disability advocacy organizations. CILs serve people with disabilities 
of all ages and income; including people with physical, cognitive and 
sensory disabilities, as well as the growing population of people with 
mental illnesses and PTSD. All Centers for Independent Living offer 
four core services of independent living skills training, peer support, 
individual and systems advocacy, and information and referral. Many 
Centers offer additional services such as support groups, community 
advocacy projects, home modification programs, assistive technology 
loan banks, attendant care services, deaf interpreters services, 
Braille services, recreation, and other community collaboration 
efforts.
    According to data collected by the Rehabilitation Services 
Administration, during Fiscal Years 2004-2006, Centers for Independent 
Living:
    Attracted over $520 million through private, state, local, and 
other sources annually;
    Moved 8,381 people out of nursing homes and institutions, saving 
states and the Federal government well over $160 million, not to 
mention improving people's quality of life, and;
    Provided the core services of advocacy, information and referral, 
peer support, and independent living skills training to over 3 million 
individuals with disabilities.\1\
---------------------------------------------------------------------------
    \1\ Rehabilitation Services Administration response to NCIL Freedom 
of Information Act request 08-00115-F. November 19, 2007
---------------------------------------------------------------------------
    In that same period, Centers provided other services to over 
659,000 individuals with disabilities in their respective communities 
that included:

        Services to over 56,000 youth with disabilities;

        Assistance to over 169,000 people in securing accessible, 
        affordable, and integrated housing;

        Transportation services to over 106,000 people with 
        disabilities;

        Personal assistance services to over 163,000 people with 
        disabilities;

        Vocational and employment services to 105,000 people with 
        disabilities, and;

        Assistance with Assistive Technology for 114,000 people with 
        disabilities.

    NCIL and all Centers for Independent Living believe in the 
principle of consumer-control and that community-based services are an 
essential element of integration, which will ensure the full 
participation of people with disabilities in all aspects of society. 
NCIL has long worked to garner the support and services that people 
with disabilities need to achieve community integration and economic 
self-sufficiency. We believe people with the most significant 
disabilities can be contributing members of society given the proper 
supports. Our philosophy demands all individuals be given every 
opportunity to succeed when other agencies are content with labeling 
them unemployable.
    NCIL recently developed a Veteran's taskforce, which conducted a 
survey of our Centers for Independent Living. Results showed Centers 
for Independent Living are indeed working with veterans to obtain 
housing, assist them in navigating the VA system, acquiring personal 
attendant care, and providing information and referral. One common 
theme that came out of the survey loud and clear is that there must to 
be a formal connection between Centers for Independent Living and the 
VA. When Centers for Independent Living get a referral from the VA it 
is usually at a time of crisis. We would welcome a formal relationship 
with the VA and Veteran's Service Organizations to better assist 
veterans with disabilities and their families.
    The core belief of Independent Living, which NCIL and all Centers 
for Independent Living subscribe to, is that all people have the right 
to decide how to live, work, and participate in their communities, and 
that consumer-directed and community-based services are the most 
effective and cost efficient method for the full integration of the 
wounded warriors back to civilian life.
    The reports of the President's Commission on Care for America's 
Returning Wounded Warriors, as well as the VA's Vocational 
Rehabilitation and Employment Taskforce, support these fundamental 
Independent Living core beliefs and agree on the need to create more IL 
programs, which increase access to community-based services.
    While the VA's long history of assistance to returning warriors has 
focused primarily on clinical treatment and compensation, Centers for 
Independent living have been focusing on one-on-one support to assist 
people with disabilities in outlining their future goals, learning that 
there is a way to have a high quality of life with a disability, and 
creating a support network within the community to enhance the lives of 
all.
    Fortunately, Centers for Independent Living want to collaborate 
actively with the VA. Centers for Independent Living and NCIL is on 
record requesting additional funding to be allocated to help assist the 
VA in providing essential and timely services to veterans and their 
families. Many Centers for Independent Living employ veterans and have 
reached out to include veterans with disabilities on their staff and 
boards of directors so that they may use their real life experience to 
improving VA programs in their local community, and use existing 
programs to help expand capacity to serve newly injured and aging 
veterans who proudly served our country to live independently within 
their own local communities.
    Centers in Alaska, Minnesota and Michigan are working with their 
communities to make sure our veterans are receiving the proper supports 
to reintegrate into their communities. In Alaska, the CIL works with 
the VA, offering veterans access to their mobility loan closet or their 
TBI support groups. In Minnesota CILs are important and valuable 
community resources for the VA providing peer-to-peer supports and 
accessing community supports at a faster pace. Our independent living 
specialists in Michigan are now doing some work with the VA, including 
Pre-IL assessments, comprehensive assessments, case management and 
other IL supports as needed.
    NCIL encourages all Veteran Affairs programs to connect with local 
Center for Independent Living through out the country. NCIL and our 
Veterans' Task would welcome the opportunity to discuss how Centers for 
Independent Living can help the VA enhance services for our Nation's 
returning veterans. To this end, NCIL looks forward to working with you 
and your staff to address these policy issues.
    Thank you for your time and attention to this critical issue.

                                 <F-dash>
                  Prepared Statement of Richard Daley,
     Associate Legislation Director, Paralyzed Veterans of America
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and members of 
the Subcommittee, on behalf of Paralyzed Veterans of America (PVA) I 
would like to thank you for the opportunity to testify today on the 
Department of Veterans Affairs (VA) Independent Living Program which is 
administered by VA's Vocational Rehabilitation and Employment (VR&E) 
Program.
    PVA believes that the VR&E Program is one of the most critical 
programs VA administers in assisting veterans with disabilities to 
successfully transition to civilian life. The primary mission of the 
VR&E program is to provide veterans with service-connected disabilities 
all the necessary services and assistance to achieve maximum 
independence in daily living and to the maximum extent feasible, to 
become employable and to obtain and maintain suitable employment. In 
VR&E's mission statement, independent living services is mentioned 
first, emphasizing the importance of the independent living program and 
the Congressional intent for the VR&E program to focus on providing 
services to veterans with severe disabilities.
    In 1980, when the Independent Living (IL) program was first 
developed, it was implemented as a pilot program and imposed a 500 new 
case cap to the new program. In the succeeding years, the program grew 
and proved successful in helping veterans with severe disabilities to 
gain greater independence in their daily living activities. The 500 new 
case cap seemed to be forgotten and the caseload for independent living 
continued to grow well beyond 500 new cases a year. Following years of 
dealing with the 500 case cap, VA met with Congressional staff members 
to request that the cap be removed. Congress at that time was not 
willing to remove the cap as they wanted VA to implement stronger 
guidelines for the program. Congress did, however, increase the cap 
from 500 to 2,500 new cases in 2001.
    Even though the new case cap was increased, VA continued to bump up 
against the cap for many years. This meant that starting in the fourth 
quarter of each fiscal year VR&E had to constantly monitor the number 
of new IL cases opened around the country. As VR&E approached the cap 
limit, they had to slow down or delay delivery of independent living 
services for new cases until the start of the next fiscal year. When 
the VA approached the cap limit, VR&E tried to ensure that veterans 
most in need would be served without delay. VR&E did this by requesting 
that counselors submit their new IL cases to Central Office for review. 
VR&E staff at Central Office then tried to make the determination as to 
who needed services immediately and who could wait. Unfortunately, this 
procedure is quite disruptive and can endanger the success of the 
rehabilitation process. Imagine engaging in outreach activities, 
developing new cases, and then having to explain to veterans with the 
most severe disabilities that they must wait to receive any services.
    In addition to the delay in services, the cap has placed an 
unnecessary burden on VR&E staff. Time devoted by VR&E counselors in 
the field preparing requests to serve new IL cases and time spent by 
Central Office staff reviewing such requests as well as the constant 
monitoring of the new IL case count can certainly be used in more 
productive ways to provide services to veterans. While VR&E may not 
have reached the cap in the last year or two, the cap still presents an 
unnecessary burden and seems to be in direct conflict with providing 
the necessary services to veterans with severe disabilities.
    PVA strongly opposes any unnecessary delay in services for 
veterans, especially services to severely disabled veterans. PVA is 
extremely disappointed that VR&E staff is still forced to abide by the 
arbitrary 2,500 new case cap. At this point in time when the 
continuation of our military efforts associated with Operation Iraqi 
Freedom and Operation Enduring Freedom (OIF/OEF) are unfortunately 
resulting in ever increasing numbers of veterans who sustain serious 
injuries, any limit placed upon the delivery of services to severely 
disabled veterans is at best contrary to the intent of Congress and the 
American public.
    The VR&E program provides services to approximately 95,000 veterans 
each year. In FY 2007, VA reported that the VR&E program rehabilitated 
11,008 veterans with service-connected disabilities. Of the total 
number of veterans rehabilitated, 8,252 veterans were determined 
rehabilitated through obtaining employment and 2,756 veterans were 
determined rehabilitated through achieving their independent living 
goals.
    To achieve these outcome results, VR&E has made progress through 
continual improvement in its programs. In 2004, VR&E hired an IL 
Coordinator to manage the program. In 2005, IL Standards of Practice 
were issued to VR&E field staff providing detailed guidance. Over the 
last 3 to 4 years, VR&E Central Office staff have provided numerous 
training sessions on the delivery of IL services.
    Yet there is still much more that can be done to ensure that 
veterans with severe disabilities are well served in the areas of 
independent living and vocational rehabilitation. Outreach activities 
targeting severely disabled veterans can be enhanced. Stronger linkages 
with other advocacy and community-based programs can be established. 
Finally and perhaps most importantly, VR&E needs to direct more time 
and attention to assisting those veterans who after achieving their 
independent living goals are ready to move toward developing vocational 
goals that may include volunteer work, part-time employment, and even 
full-time employment.
    With the removal of the IL cap and greater attention directed at 
serving veterans with severe disabilities, PVA recommends that VR&E be 
given additional professional full time employee positions for IL 
specialist counselors. These experienced counselors should be fully 
devoted to delivering services to those veterans determined to have 
serious employment handicaps and to partnering with other programs in 
the community to bring to veterans the full range of IL services 
available. These specialty counselors will be able to target their 
efforts on enhancing both the accessibility and quality of independent 
living services available to veterans with severe disabilities.
    PVA's recommendation for IL specialist counselor is based upon our 
own experience. PVA has developed and implemented a new Vocational 
Rehabilitation Services program to ensure that all veterans with spinal 
cord injury or disease have equitable employment opportunities and that 
the estimated 85 percent unemployment rate among PVA members becomes a 
grim statistic of the past. In partnership with VA and cooperate 
sponsors (Health Net Federal Services and Tri West Healthcare 
Alliance), PVA has been able to open two vocational rehabilitation 
services offices: one at the VA SCI Center in Richmond, Virginia and 
more recently at the VA SCI Center in St. Paul, Minnesota. We also 
anticipate opening a third office in San Antonio, Texas this fall. 
PVA's vocational services at these two offices are delivered by Mr. 
Rick Schiessler and Ms. Diane Acord. Both rehabilitation counselors 
have many years of experience and proper credentials to specialize in 
providing services to individuals with SCI disabilities. Our new 
program appears to be very promising and in less than a year's time, we 
are serving well over 100 veterans and have assisted 20 veterans with 
severe disabilities obtain employment. The average starting salary of 
our employed veterans is $39,400. We believe a large part of our 
success so early in the development stage of the program is due to our 
specialty counselors who are able to devote all of their attention to 
providing services to veterans with SCI disability.
    In addition to specialty IL counselors in the field, PVA also 
recommends that staff at Central Office responsible for managing the IL 
program be increased. As stated earlier, VR&E has an IL Coordinator who 
manages the program. However, having only one individual trying to 
manage an entire national program appears unrealistic, especially if 
the IL cap is removed and VR&E places more emphasis on serving veterans 
with severe disabilities. PVA recommends that if Congress wishes VR&E 
to improve the IL program, then management of the program should be 
properly resourced.
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and members of 
the Subcommittee, Paralyzed Veterans of America supports your efforts 
to review and improve the existing vocational rehabilitation programs 
of the Department of Veterans Affairs, especially those programs 
designed to serve veterans with the most severe disabilities. We look 
forward to working with you to ensure that the best services are 
available particularly for veterans with severe disabilities. This 
concludes my testimony. I would be happy to answer any questions you 
may have.

                                 <F-dash>
                   Prepared Statement of Mark Walker,
   Assistant Director, National Economic Commission, American Legion
EXECUTIVE SUMMARY
    The mission of the Veterans Rehabilitation and Education (VR&E) 
program is to help qualified, service-disabled veterans achieve 
independence in daily living and, to the maximum extent feasible, 
obtain and maintain suitable employment. The American Legion fully 
supports these goals. The Independent Living Program (ILP) was 
established in 1980 by P.L. 96-466, the Veterans Rehabilitation and 
Education Amendments. The program serves severely disabled veterans 
whom the Department of Veterans Affairs (VA) determined were unable to 
obtain and maintain suitable employment when achievement of a 
vocational goal is not feasible. ILP services and assistance provided 
to veterans include evaluation and counseling; prosthetic appliances; 
eyeglasses; communication devices; adaptive automobile equipment; 
wheelchair training; and other services necessary to enable a severely 
disabled veteran to achieve maximum independence in daily living. 
Veterans may remain in the ILP for a maximum of 30 months. Chapter 31 
of Title 38, U.S. Code limits the number of veterans who can be placed 
in the ILP to 2,500 annually. The American Legion supports the removal 
of the cap. Additionally, the VA should effectively manage and monitor 
the number of new ILP participants and provide detail information to 
Congress on delays in veterans' services until a decision has been made 
to remove the annual statutory cap.
    The total number of veterans who were rehabilitated through the 
Independent Living Program in FY 2006 and FY 2007 were 2,162 and 2,756 
respectively. In February 2007, the VA Secretary stated that VR&E 
anticipates a steady increase in the demand for ILP services over the 
next 10 years. Severely disabled veterans stated that the Independent 
Living Services assisted them in adjusting to home life and 
participating with family and community life at a higher level. For 
example, a veteran from Georgia described that once he was accepted 
into the ILP, he was supplied with special walking shoes, an exercise 
machine, and a computer. The Independent Living services allowed him to 
better operate and feel more productive at home. The program has 
provided severely disabled veterans much needed assistance and possible 
hope for future employment.
    During this time of war we all have an important mission in 
enabling our injured soldiers, sailors, and airmen and other veterans 
with disabilities to have a seamless transition from military service 
to a successful rehabilitation and on to suitable employment after 
service to our Nation.
    The American Legion strongly supports the ILP and is committed to 
working with the VA and other Federal agencies to ensure that America's 
severely disabled veterans are provided with the highest level of 
service and employment assistance. Again, thank you for the opportunity 
to submit the opinion of The American Legion on this issue.

                                 ______
                                 
    Madam Chairwoman and distinguished members of the Subcommittee, 
thank you for the opportunity to present the views of The American 
Legion regarding the Independent Living Program (ILP), which falls 
under the Department of Veterans Affairs (VA) Vocational Rehabilitation 
and Education (VR&E) program.
VOCATIONAL REHABILITATION AND EMPLOYMENT SERVICE
    Since the forties, VA has provided vocational rehabilitation 
assistance to veterans with disabilities incurred during military 
service. The Veterans Rehabilitation and Education Amendments of 1980, 
Public Law (P.L.) 96-466, changed the emphasis of services from 
training, aimed at improving the employability of disabled veterans, to 
helping veterans obtain and maintain suitable employment and achieve 
maximum independence in daily living. Vocational Rehabilitation and 
Employment (VR&E) program employment goals are accomplished through 
training and rehabilitation programs authorized under Chapter 31 of 
Title 38, U.S. Code. Title 38 provides a 12-year period of eligibility 
after the veteran is discharged or first notified of a service-
connected disability rating. To be entitled to VR&E services, veterans 
must have at least a 20 percent service-connected disability rating and 
an employment handicap or less than a 20 percent disability and a 
serious employment handicap.
    The mission of the VR&E program is to provide comprehensive 
services and assistance necessary to enable veterans with service-
connected disabilities and employment handicaps to become employable, 
then obtain and maintain stable and suitable employment. The American 
Legion fully supports these goals. The Independent Living Program (ILP) 
was established in 1980 by P.L. 96-466, the Veterans Rehabilitation and 
Education Amendments. The program serves severely disabled veterans, 
who VA determined were unable to obtain and maintain suitable 
employment, when achievement of a vocational goal is not feasible. ILP 
services and assistance provided to veterans include evaluation and 
counseling; prosthetic appliances; eyeglasses; communication devices; 
adaptive automobile equipment; wheelchair training; and other services 
necessary to enable a severely disabled veteran to achieve maximum 
independence in daily living. Veterans may remain in the ILP for a 
maximum of 30 months. Chapter 31 of Title 38, U.S. Code limits the 
number of veterans who can be placed in the ILP to 2,500 annually.
    Administration of VR&E and its programs is a responsibility of the 
Veterans Benefits Administration (VBA). Historically, VBA has placed 
emphasis on the processing of veterans' claims and the reduction of the 
claims backlog, which is extremely important. However, providing 
effective employment programs through VR&E must be a priority as well.
    Historically, VA has been lacking in its efforts to find employment 
for disabled veterans. The Vocational Rehabilitation program has 
historically been marketed to veterans as an education program and not 
an employment program. A majority of veterans attended universities and 
colleges with few enrolled in training programs, such as 
apprenticeships and on-the-job training that can lead to direct job 
placement.
    Until recently, VR&E's primary focus has been providing veterans 
with skills training, rather than obtaining meaningful employment. 
Clearly, any employability plan that doesn't achieve the ultimate 
objective, a job, is an injustice to those veterans seeking assistance 
in transitioning into the civilian workforce.
MANAGEMENT AND PERFORMANCE STANDARDS
    In 2003, the Secretary of Veterans Affairs established a task force 
to examine the entire VR&E Program. The resulting 2004 VR&E Task Force 
Report contained 110 recommendations to redesign the program to become 
``a proactive, employment-driven, 21st Century program that can 
effectively serve veterans with disabilities.'' The task force reported 
areas of concern in VR&E's provision of employment services to 
veterans, workload management, fiscal accountability, performance 
measurement, and information technology (IT) management including a 
concern that VR&E's IT systems did not produce the information and 
analyses needed to manage program activities. As of April 2007, VR&E 
reports that 89 of 110 recommendations have been fully implemented and 
13 are planned for implementation. As of July 2008, VR&E reports that 
out of the 13 remaining recommendations for implementation, 4 of those 
will be implemented within 12 months and 8 will be implemented beyond 
12 months.
    The Government Accountability Office (GAO) issued a report in June 
2004 that concluded that VA has not been effective in meeting its 
mandate to find jobs for disabled veterans. The report agreed with the 
2004 VR&E Task Force Report finding that VA had not prioritized 
returning veterans with service-connected disabilities to the workforce 
and that the VR&E Program has emphasized education over employment. The 
2004 VR&E Task Force Report stated, ``VR&E's best efforts regarding 
employment of veterans have resulted in only 10 percent of those 
participating in the VR&E program obtaining employment,'' and stated, 
``Despite the tens of thousands of VR&E program participants in a given 
year, the number of veterans rehabilitated by obtaining a job or 
achieving ILP goals has averaged only about 10,000 a year for several 
years.''
    Another problem hindering the effectiveness of the VR&E program as 
previously cited in reports by the Government Accountability Office 
(GAO) is exceptionally high workloads for the limited number of staff. 
This hinders the staff's ability to effectively assist individual 
veterans with identifying employment opportunities.
    As mentioned above, Chapter 31 of Title 38, U.S. Code limits the 
number of veterans who can be placed in the ILP to 2,500 annually. Due 
to the statutory annual cap on the number of ILP participants, VR&E 
Service instructed VA Regional Offices (VAROs) to discontinue placing 
veterans into ILP status as they approached the cap unless approved by 
VA Central Office (VACO). From FY 2002 through FY 2006, VR&E issued 
interim procedures that prohibited VR&E staff from approving new 
veterans into the ILP unless VACO program officials authorized the 
placements. The interim procedures further directed that if 
authorization were denied, the veteran should be considered a priority 
for initiation in the new FY and held in the Evaluation and Planning 
phase until that date.
    As a result, the cap was underutilized in FY 2006 and services to 
entitled veterans were delayed. An average of 225 veterans per month 
entered the ILP nationwide from October 2005 through June 2006. 
However, during the months of July 2006 through September 2006, 
subsequent to issuance of the interim procedures, an average of 45 
veterans per month entered into the ILP. Ultimately, a total of 2,162 
veterans entered the ILP in FY 2006. Even though the number of new 
veterans that entered the program did not exceed the annual cap, VR&E 
service anticipated exceeding it, which delayed veterans from entering 
the ILP when they were eligible. This cap delays benefits to severely 
disabled veterans who are entitled to participate in the ILP. VA has 
made efforts since 2001 to remove the cap; however, the cap remains in 
effect.
    The American Legion supports the removal of the cap. VA should 
effectively manage and monitor the number of new ILP participants and 
provide detailed information to Congress on delays in veterans' 
services until a decision has been made to remove the annual statutory 
cap, especially during a period of armed conflict.
    VA reports that VR&E rehabilitation rates as a measure of Chapter 
31 program performance in the annual VA Performance and Accountability 
Report (PAR). The PAR should include data on total program 
participants, including those who discontinued program participation, 
those who obtained and maintained suitable employment, and those who 
achieved ILP goals. Currently, the PAR does not accomplish that. The 
PAR should provide accurate and complete information for budgetary and 
resource decisions.
    Unfortunately, most veterans discontinued participation in the 
Chapter 31 program and were not rehabilitated. Data in Benefits 
Delivery Network (BDN), the major computer system used by VBA to 
process veterans' claims, does not provide VR&E management with 
sufficient information to analyze the reasons for the high rate of 
program discontinuation. Once the reasons are identified, the 
information could be used to design interventions to reduce the 
probability of veterans dropping out of the program.
    VBA currently has a study, Veterans Employability Research Survey, 
which is scheduled for completion in September 2008. Study results will 
be used to establish nationwide procedures to help reduce the number of 
veterans who discontinue the VR&E program.
    It seems that the VR&E program has remained in a perpetual state of 
transition for the past 25 years, according to countless GAO and VA 
reports. The 2004 Task Force Report stated that the VR&E system must be 
redesigned for the 21st Century employment environment. The American 
Legion continues to support strong leadership and continued 
verification of the recommendations made in the 2004 Task Force Report. 
In fiscal year (FY) 2006, VR&E funding was $702 million, and the 
program served about 90,000 veterans. Adequate funding is needed to 
assist the management staff of VR&E to continue its implementation of 
the recommendations.
REHABILITATION AND EMPLOYMENT OUTCOMES

                                   Numbers of Rehabilitated/Employed Veterans
----------------------------------------------------------------------------------------------------------------
                                                    Veterans successfully    Veterans successfully employed with
                      Year                              rehabilitated                   suitable jobs
----------------------------------------------------------------------------------------------------------------
FY 03                                                                9,549                                7,525
----------------------------------------------------------------------------------------------------------------
FY 04                                                               11,129                               18,392
----------------------------------------------------------------------------------------------------------------
FY 05                                                               12,013                               19,279
----------------------------------------------------------------------------------------------------------------
FY 06                                                        Not available                        Not available
----------------------------------------------------------------------------------------------------------------
FY 07                                                               11,008                               18,252
----------------------------------------------------------------------------------------------------------------


    The above demonstrates the improved outcomes for the VR&E program.
    Although there are improvements needed in the VR&E program, 
veterans who have gone through the program stated that the counseling, 
training, education, and skills that they acquired led to gainful 
employment both within the public and private sectors. A veteran from 
Massachusetts went into the VR&E and received an associate degree. 
Currently, he operates his own small business, while completing his 
bachelor's degree. Severely disabled veterans stated that the 
Independent Living Services assisted them in adjusting to home life and 
participating with family and community life at a higher level.
    For example, a veteran from Georgia described that once he was 
accepted into the ILP, he was supplied with special walking shoes, an 
exercise machine, and a computer. The Independent Living services 
allowed him to better operate and feel more productive at home. The 
program has provided severely disabled veterans much needed assistance 
and possible hope for future employment.
2008 VR&E AND INDEPENDENT LIVING PROGRAM PARTICIPANTS

----------------------------------------------------------------------------------------------------------------
                        Locations                          VR&E Program Participants  Veterans Placed in the ILP
----------------------------------------------------------------------------------------------------------------
Indiana                                                                       1,880                         163
----------------------------------------------------------------------------------------------------------------
Arkansas                                                                      1,382                          24
----------------------------------------------------------------------------------------------------------------
South Dakota                                                                    781                          43
----------------------------------------------------------------------------------------------------------------
North Dakota                                                                    569                          29
----------------------------------------------------------------------------------------------------------------
District of Columbia                                                          2,318                          11
----------------------------------------------------------------------------------------------------------------
New York City                                                                 1,700                         219
----------------------------------------------------------------------------------------------------------------


    The total number of veterans who were rehabilitated through the 
Independent Living Program in FY 2006 and FY 2007 were 2,162 and 2,756 
respectively. In February 2007, the VA Secretary stated that VR&E 
anticipates a steady increase in the demand for ILP services over the 
next 10 years.
    At this time in the nation's history, it is paramount that we 
ensure VA is capable of enabling injured veterans with disabilities to 
have a seamless transition from military service to a successful 
rehabilitation and on to suitable employment after military service. 
For severely disabled veterans, this success will be measured by their 
ability to live independently, achieve the highest quality of life 
possible, and realize the hope for employment given advances in medical 
science and technology. To meet America's obligation to these specific 
veterans and other eligible VR&E veterans, VA leadership must continue 
to focus on marked improvements in case management, vocational 
counseling, and most importantly job placement.
    The American Legion strongly supports the ILP and is committed to 
working with VA and other Federal agencies to ensure that America's 
severely disabled veterans are provided with the highest level of 
service and employment assistance. Again, thank you for the opportunity 
to present the opinion of The American Legion on this issue.

                                 <F-dash>
                  Prepared Statement of Ruth Fanning,
      Director, Vocational Rehabilitation and Employment Service,
 Veterans Benefits Administration, U.S. Department of Veterans Affairs
    Madam Chairwoman and members of the Subcommittee, thank you for 
inviting me to appear before you today to discuss the independent 
living services provided by VA's Vocational Rehabilitation and 
Employment (VR&E) program. My testimony will provide an overview, 
address the cap of 2,500 new independent living cases per fiscal year, 
and describe VR&E efforts to improve and facilitate the delivery of 
these essential services.
Overview of Independent Living
    Independent living (IL) services may be provided to VR&E applicants 
when it is determined during the initial evaluation that they cannot, 
due to the severity of their disability(ies), currently pursue a 
vocational goal. After this determination, each veteran participates in 
a thorough assessment of his or her potential IL needs. The evaluation 
begins with a preliminary assessment. During this assessment, the 
counselor obtains information about a variety of issues, including 
housing, personal and emotional needs; leisure and avocational 
activities; and the ability of the veteran to perform activities of 
daily living. If potential IL needs are identified, the VR&E counselor 
or another provider with specialized experience and/or training 
completes a comprehensive assessment of IL needs. This assessment is 
usually performed at the veteran's home. If IL needs are found and it 
is determined that achievement of appropriate goals is possible, the 
counselor works with the veteran to develop an Independent Living Plan. 
This plan outlines the goals, services, and assistance to be provided 
and benchmarks to be used to determine progress in achieving greater 
independence in daily living.
    Independence in daily living translates to the ability of a veteran 
to live and function within family and community, either without the 
services of others or with a reduced level of those services. Services 
are tailored to each veteran's needs and may include a discrete service 
or a comprehensive program of services necessary to achieve maximum 
independence in daily living.
    Total programs of IL services are usually no longer than 24 months 
duration. In exceptional circumstances, the counselor may request a 6-
month extension.
    Some of the IL services VA provides include training in activities 
of daily living, training in skills needed to improve an individual's 
ability to live more independently, attendant care during a period of 
transition, transportation when special arrangements are required, peer 
counseling, housing integral to participation in a program of special 
rehabilitation services through an approved independent living center 
or program, training to improve awareness of rights and needs, 
assistance in identifying and maintaining volunteer or supported 
employment, services to decrease social isolation, and adaptive 
equipment that increases functional independence.
    IL services may also help a veteran become able to participate in 
an extended evaluation. The purpose of an extended evaluation is to 
assess the ability of the veteran to achieve a vocational goal. 
Discrete IL services may also be provided as components of other 
rehabilitation plans. The IL services included in these plans must be 
directly related to the achievement of the plan goal, whether that goal 
is vocational training, a more extensive assessment of vocational 
feasibility, or employment.
    The VR&E Officer must approve IL program costs exceeding the 
counselor approval limit of $25,000 per calendar year. Program costs 
exceeding $75,000 per calendar year can be approved by the Director of 
the VA Regional Office. Program costs in excess of $100,000 per 
calendar year and IL-related construction costs exceeding $25,000 must 
be approved by the Director of VR&E Service.
    VR&E performs quality assurance reviews of IL casework. Cases are 
reviewed during oversight visits at regional offices, and the results 
are used to develop training or provide additional guidance when 
appropriate.
Independent Living Cap
    With the passage of P.L. 107-103, the Veterans Education and 
Benefits Expansion Act of 2001, the limit on the number of new IL cases 
per year increased from 500 to 2,500. VR&E Service monitors newly 
developed IL cases monthly to track total IL cases in comparison to the 
legislative cap. Tracking over the past 2 years demonstrates the 
ability of VR&E counselors to provide needed services within the 
current 2,500 statutory cap. On average, 2,300 new cases have entered 
IL services each of the past 3 years.
Independent Living Services and Results
    Veterans with severe disabilities who participate in programs of 
independent living have achieved results that include increased 
independence, decreased isolation, decreased dependence on outside 
supports, enhanced family relationships, improved medication and 
therapeutic intervention compliance, and greater community involvement. 
Other positive outcomes include veterans being able to leave long-term 
institutional care to live in the community with reduced reliance on 
other federally funded service providers, pursuit of full or part-time 
volunteer employment, and progression from IL programs to other VR&E 
employment programs.
    As a result of increased outreach, we anticipate more veterans will 
participate in programs of IL services. Also, the medical stabilization 
of returning OEF/OIF veterans with catastrophic injuries will 
necessitate their participation in vocational rehabilitation programs. 
The aging Vietnam Era population and the increasing number of veterans 
receiving compensation due to presumptive diseases will also likely 
increase the utilization of IL services.
    VR&E Service closely monitors the number of entering cases to 
ensure priority services are provided to veterans with the most serious 
disabilities. We also provide training and guidance to field staff to 
incorporate IL services into Individualized Written Rehabilitation 
Plans and Individualized Extended Evaluation Plans when appropriate.
Training
    In early 2005, Guidelines for the Administration of the Independent 
Living Program were published and implemented. These guidelines include 
standards of practice and mandatory job aids for counselors. Use of 
these tools improved the quality and consistency of independent living 
assessments, plan development, service delivery, and case closures.
    To reinforce the understanding and use of these tools and 
practices, VR&E Service provides targeted and extensive training about 
IL services for counselors and managers, including training workshops 
for vocational rehabilitation counselors directly responsible for 
developing IL plans and providing IL services.
    As a part of ongoing IL training, VR&E Officers and Assistant VR&E 
Officers also receive information about community partnerships 
facilitating IL planning and service delivery. Building on 
collaboration with the Executive Director for Centers for Independent 
Living, a panel presentation at the recent VR&E Leadership Conference 
focused on information about Centers for Independent Living and current 
initiatives at these Centers to work with veterans with severe 
disabilities.
    Another panel at the VR&E Leadership Conference addressed methods 
and services to facilitate the employment of individuals with severe 
disabilities, such as traumatic brain injury, post traumatic stress 
disorder, spinal cord injury, severe mental illness, and polytrauma. 
Panelists included representatives from Easter Seals, the Vocational 
Rehabilitation Services Program sponsored by Paralyzed Veterans of 
America, and the Compensated Work Therapy program within the Veterans 
Health Administration (VHA).
Current and Future Studies
    To obtain a more comprehensive understanding of the veterans who 
participate in IL programs, VR&E Service funded an Independent Living 
Participant Study. This contracted study will provide the first 
comprehensive analysis of the veterans, services, and outcomes achieved 
by veterans participating in total programs of IL services. This study 
will expand our knowledge about the disabilities and disability 
ramifications of IL program participants; the use of technology and 
adaptive equipment to minimize or ameliorate disability ramifications 
in daily life; and utilization of other VA benefits and benefits 
available through private providers or other state or federal sources. 
Recommendations to improve the administration of IL services under the 
VR&E program will be provided. The study is expected to be completed by 
September 30, 2008.
    Next year, VR&E plans to fund a study to examine factors 
influencing the employment of individuals with severe injuries. Many of 
these individuals will initially utilize IL services, either in total 
programs of independent living or through IL services included in other 
rehabilitation plans. The objective of this project is to collect data 
and perform a comprehensive analysis of factors influencing the 
successful employment of veterans of the military with severe injuries. 
The population studied will include individuals with disabilities such 
as traumatic brain injury, spinal cord injury, blindness, amputation, 
severe mental illness, burns, and polytrauma. Recommendations will be 
provided on methods to improve employment outcomes and train counselors 
in working with and planning rehabilitation programs for servicemember 
and veterans with severe injuries.
Cooperative Relationships
    In cooperation with the Specially Adapted Housing Grant program 
administered by VA's Loan Guaranty Service, VR&E independent living 
services help meet the needs of veterans with severe disabilities and 
mobility impairments. In 2005, VR&E Service and Loan Guaranty Service 
established formal procedures to facilitate cooperative relationships 
while maintaining the integrity of each program. When working with 
veterans who have home-modification needs, VR&E counselors investigate 
eligibility for the Specially Adapted Housing grant, and may assist the 
veteran in the application and coordination process.
    Specially Adapted Housing Agents, as part of their initial 
interview protocol, discuss potential eligibility for IL services. 
Specially Adapted Housing Program Managers regularly attend VR&E 
management conferences to provide information on the Specially Adapted 
Housing Program.
    This cooperation has resulted in the delivery of life-changing 
services to veterans. In one instance, a veteran with quadriplegia 
received home modifications and a generator from the Specially Adapted 
Housing Program. IL services included adaptive equipment and assistive 
devices such as a voice activated computer and a flashing telephone and 
doorbell. Another veteran, blinded in Vietnam, needed a bedroom and 
bath constructed on the first floor of his home. VR&E and the Specially 
Adapted Housing Program were able to jointly complete these 
modifications, ensuring the veteran's safety in his home and increased 
independence.
    VR&E also works with programs administered by VHA, including the 
Home Improvements and Structural Alterations (HISA) program, the 
Automobile Adaptive Equipment program, and the Visually Impaired 
Services Team (VIST) program. The VHA provides HISA grants up to $1,200 
for nonservice-connected veterans or up to $4,100 for service-connected 
veterans who need modifications to their homes to facilitate entry and 
provide access within the home.
    VA's Automobile Adaptive Equipment program helps veterans or 
servicemember who are service-connected for the loss or loss of use of 
one or both feet or hands, or who have service-connected abnormal 
adhesion of the bones of a joint of one or both knees or one or both 
hips. Veterans with severe burns resulting in a rating of loss of use 
of their extremities also qualify. The program can provide, among other 
things, power steering, brakes, windows, doors, mirrors, seats, 
automatic transmission, van lifts, wheelchair and scooter lifts, 
shipping costs, and other special equipment necessary to the 
individual.
    VHA's Compensated Work Therapy (CWT) programs provide supported 
employment opportunities for veterans with severe mental illness and 
other catastrophic disabilities, including traumatic brain injury and 
spinal cord injury. CWT programs are offered at over 162 locations 
across the country. The staff of these programs provide a range of 
vocational rehabilitation services to veterans who express an interest 
in employment. Any veteran may participate who has a severe mental 
illness or other severe disability and receives a referral from a VA 
Medical Center clinician or physician. For veterans with severe 
disabilities, CWT services can be an essential bridge from unemployment 
to employment.
    VHA's Visual Impairment Service Team (VIST) offers a wide variety 
of services, including visual exams, devices to assist with daily 
living, and adapted computers and training to veterans with visual 
impairments. VHA also offers an array of prosthetic devices and 
services for patients based upon such factors as enrollment, medical 
evaluations, and prescriptions.
    VR&E participates in work groups and Committees that discuss and 
recommend policies to serve veterans likely to participate in IL 
services. These committees include the Committee on Care of Veterans 
with Severe Mental Illness (SMI) and the Traumatic Brain Injury 
Caregivers Panel. The SMI Committee is a VHA Committee created to 
discuss, develop, and review VA treatment protocols, funding, and 
initiatives for veterans with mental illness. Members include VHA 
clinicians as well as members of service organizations and 
organizations dedicated to mental health issues in the private sector. 
Section 744 of the, P.L. 110-181, signed by the President on January 
28, 2008, mandated the creation of the Traumatic Brain Injury 
Caregivers Panel. The purpose of the 15 member panel is ``to develop 
coordinated, uniform, and consistent training curricula to be used in 
training family members in the provision of care and assistance to 
members and former members of the Armed Forces with traumatic brain 
injuries.'' Panel members were appointed after receiving Department of 
Defense and White House approval.
Services to Seriously Wounded
    VR&E is an integral part of a seriously injured servicemember's or 
veteran's adjustment and reintegration into their community. Working 
together with military treatment facilities, the Department of Labor, 
VHA, as well as VHA's Care Coordinators, and VBA personnel, VR&E 
provides an optimal program of vocational rehabilitation and employment 
services to assist with seamless transition from military to civilian 
life.
    Early intervention services for a seriously wounded OIF/OEF 
servicemember or veteran begins with a VR&E Vocational Rehabilitation 
Counselor directly contacting the individual to inform him or her about 
available benefits. This initial contact may occur while the 
servicemember is receiving treatment at a medical treatment facility, a 
VA Medical Center, or the individual's home. VR&E staff is equipped to 
go anywhere necessary to deliver the initial orientation and provide 
assistance to the wounded warrior and his or her family.
    This initial contact allows for the vocational rehabilitation 
process to begin earlier during medical rehabilitation and enables the 
veteran to make the transition quickly to work or to a program of 
employment services after he or she is discharged and ready to pursue 
vocational goals. This early intervention also gives hope to veterans 
as they readjust to their disabilities and plan for their future.
    Once the eligible servicemember or veteran completes the initial 
orientation and the vocational assessment, a plan of service is 
developed to assist in meeting the individual's vocational goals. In 
developing the rehabilitation plan, VR&E staff work closely with MTF 
and VHA personnel, communicating with medical teams to obtain current 
information about the veteran's physical capacities and projected 
recovery timelines. VR&E is also collaborating with the new Federal 
Recovery Coordinators to ensure seamless and timely delivery of 
services.
    For servicemembers and veterans who are physically recovering from 
catastrophic injuries and need independent living services in addition 
to planning for their vocational goals, an extended evaluation period 
may be needed. Individuals who are so severely disabled that a decision 
cannot be made about whether an employment goal is currently feasible 
may be provided an extended evaluation of more than the basic 12 
months. VR&E Service has authorized field managers to approve extended 
evaluations for OIF/OEF servicemembers and veterans up to a total of 18 
months.
    Another tool to assist the injured servicemember or veteran is the 
``Coming Home to Work'' (CHTW) initiative. The CHTW initiative began in 
September 2004 as a pilot at Walter Reed Army Medical Center. In 
November 2005, responsibility for CHTW was transferred to VR&E Service 
and became an integral part of VR&E's early intervention and outreach 
efforts to OEF/OIF servicemembers. CHTW is established at all MTFs, 
with current staffing provided to 13 Regional Offices serving major 
MTFs to support this initiative. CHTW provides opportunities for 
eligible servicemembers to fast track into VR&E services, obtain work 
experience, develop skills needed to make the transition to civilian 
employment, determine the suitability of potential careers, and make 
the transition into competitive employment positions.
    The need for early VR&E outreach through CHTW has grown and is no 
longer contained only within the major Military Treatment Facilities. 
The Department of Defense has begun assigning injured servicemembers 
pending medical separation to healthcare facilities across the country. 
In order to meet the increased need for early VR&E outreach, CHTW has 
been expanded to all VR&E field offices to focus on the development of 
solid working relationships with the military chain of command, 
government agencies, and the VA local service delivery team. This close 
coordination and collaboration is vital to the success of VR&E early 
outreach efforts for wounded servicemember and veterans.
The Impact of Independent Living Services
    This example highlights the impact that IL services have on our 
veterans. A veteran with an 80 percent VA disability rating applied for 
Chapter 31 benefits. He also had a multitude of non-service connected 
disabilities and used a wheelchair due to the difficulties he had with 
ambulation due to his disabilities and injuries. His IL goals included 
increasing his ability to access his home independently, increasing his 
ability to socialize, and enhancing activities of daily living by 
providing adaptive computer equipment and teaching him how to use the 
equipment.
    Our VR&E counselor worked with a Rehabilitation Engineer to 
determine how best to increase the accessibility of the veteran's home. 
Based on the engineer's assessment and recommendation, VR&E provided 
for the installation of solar-powered remote-controlled gates on the 
veteran's property. Prior to installing the gates, the veteran would 
have to manually open and close the gates. This was difficult for him 
due to his disabilities. Now, the veteran uses the gates daily and is 
able to come and go on his property without difficulty or pain.
    During the veteran's IL program, he began to interact with his 
community at a greater rate. He began to attend community events and 
joined a social club. Using a computer was very important to this 
veteran and he had difficulty using a computer, as his injuries placed 
limitations on the use of his hands. The veteran's IL plan included an 
adaptive computer, speaking software, and private instruction to teach 
him to use the equipment and voice activation software. Today, the 
veteran is able to use the computer to take care of his finances, 
communicate with family and friends, shop, and conduct research.
Concluding Remarks
    VR&E anticipates an increased need for independent living services. 
We continue to assess our progress and develop methodologies and 
strategies to improve the delivery of benefits to these deserving 
veterans. Last year, over 2,700 independent living participants were 
rehabilitated--demonstrating they had achieved the goals of their 
programs or made substantial gains in independence as a result of VR&E 
services.
    Madam Chairwoman, this concludes my statement. I would be pleased 
to answer questions from you or any of the other members of the 
Subcommittee.

                                 <F-dash>
                       Statement of Kerry Baker,
  Associate National Legislative Director, Disabled American Veterans
    Madam Chair and Members of the Subcommittee:
    On behalf of the 1.3 million members of the Disabled American 
Veterans (DAV), I am honored to present this testimony to address the 
Department of Veterans Affairs' Independent Living Program (ILP).
    The purpose of the Vocational Rehabilitation and Employment (VR&E) 
program is to provide all services and assistance necessary to enable 
veterans with service-connected disabilities to become employable and 
obtain and maintain suitable employment, and to the maximum extent 
feasible, achieve independence in daily living. However, in any case 
wherein the VA has determined that the achievement of a vocational goal 
by a veteran currently is not reasonably feasible, such veteran shall 
be entitled, in accordance with the provisions of 38 U.S.C.A. 3120, to 
an ILP designed to enable such veteran to achieve maximum independence 
in daily living. See 38 U.S.C.A. Sec. 3109 (West 2002).
    In accordance with 38 U.S.C.A. Sec. 3120, a program of independent 
living services and assistance may be made available under this section 
only to a veteran who has a serious employment handicap resulting in 
substantial part from a service-connected disability. Eligibility for 
acceptance into the ILP is hinged on a determination that achievement 
of a vocational goal currently is not reasonably feasible. See 38 
U.S.C.A. Sec. 3106(d) and (e).
    An ILP for services and assistance to a veteran shall consist of 
such services as the Secretary determines necessary to enable such 
veteran to achieve maximum independence in daily living. The scope of 
services and assistance provided is governed by 38 U.S.C.A. Sec. 3104, 
and include the following:

     1.  Evaluation, including periodic reevaluations as appropriate 
with respect to a veteran participating in a rehabilitation program, of 
the potential for rehabilitation of a veteran, including diagnostic and 
related services (A) to determine whether the veteran has an employment 
handicap or a serious employment handicap and whether a vocational goal 
is reasonably feasible for such veteran, and (B) to provide a basis for 
planning a suitable vocational rehabilitation program or a program of 
services and assistance to improve the vocational rehabilitation 
potential or independent living status of such veteran, as appropriate;
     2.  Educational, vocational, psychological, employment, and 
personal adjustment counseling;
     3.  An allowance and other appropriate assistance, as authorized 
by section 3108 of title 38;
     4.  A work-study allowance as authorized by section 3485 of title 
38;
     5.  Placement services to effect suitable placement in employment, 
and post-placement services to attempt to insure satisfactory 
adjustment in employment;
     6.  Personal adjustment and work adjustment training;
     7.  (A) Vocational and other training services and assistance, 
including individualized tutorial assistance, tuition, fees, books, 
supplies, handling charges, licensing fees, and equipment and other 
training materials determined by the Secretary to be necessary to 
accomplish the purposes of the rehabilitation program in the individual 
case,
           (B) Payment for the services and assistance provided under 
        subparagraph (A) shall be made from funds available for the 
        payment of readjustment benefits;
     8.  Loans as authorized by section 3112 of title 38;
     9.  Treatment, care, and services described in chapter 17 of title 
38;
    10.  Prosthetic appliances, eyeglasses, and other corrective and 
assistive devices;
    11.  Services to a veteran's family as necessary for the effective 
rehabilitation of such veteran;
    12.  For veterans with the most severe service-connected 
disabilities who require homebound training or self-employment, or both 
homebound training and self-employment, such license fees and essential 
equipment, supplies, and minimum stocks of materials as the Secretary 
determines to be necessary for such a veteran to begin employment and 
are within the criteria and cost limitations that the Secretary shall 
prescribe in regulations for the furnishing of such fees, equipment, 
supplies, and stocks;
    13.  Travel and incidental expenses under the terms and conditions 
set forth in section 111 of title 38, plus, in the case of a veteran 
who because of such veteran's disability has transportation expenses in 
addition to those incurred by persons not so disabled, a special 
transportation allowance to defray such additional expenses during 
rehabilitation, job seeking, and the initial employment stage;
    14.  Special services (including services related to blindness and 
deafness) including--
           (A) language training, speech and voice correction, training 
        in ambulation, and one-hand typewriting,
           (B) orientation, adjustment, mobility, reader, interpreter, 
        and related services, and
           (C) telecommunications, sensory, and other technical aids 
        and devices;
    15.  (15) Services necessary to enable a veteran to achieve maximum 
independence in daily living;
    16.  Other incidental goods and services determined by the 
Secretary to be necessary to accomplish the purposes of a 
rehabilitation program in an individual case.

    A rehabilitation program (including individual courses) to be 
pursued by a veteran shall be subject to the approval of the Secretary.
    Unfortunately, Congress has limited programs of independent living 
services and assistance to no more than 2,500 veterans in each fiscal 
year. The first priority is afforded to veterans for whom the 
reasonable feasibility of achieving a vocational goal is precluded 
solely as a result of a service-connected disability. See 38 U.S.C.A. 
Sec. 3120(e). However, among those veterans who are provided a program 
of independent living services and assistance, the VA is required by 38 
U.S.C.A. Sec. 3120(c) to include, to the maximum extent feasible, a 
substantial number of veterans who are receiving long-term care in VA 
hospitals and nursing homes, to include contract nursing homes.
    The DAV's experience has been that this program provides an 
invaluable benefit to the most seriously disabled veterans. We have not 
experienced many problems with its implementation or the types of 
services it provides. However, the 2,500 statutory limit on enrollees 
is incredibly low considering that the program must provide services to 
brand new seriously disabled veterans, those in nursing homes and 
hospitals, and those in between.
    Including the reasons above, the statutory limit is exceptionally 
low considering that we are at war, which renders this program more of 
a necessity than ever. Therefore, the DAV's primary suggestion is that 
the statutory limit should be removed entirely.
    Madam Chair, this concludes my testimony on behalf of DAV. We hope 
you will consider our recommendations.

                                 <F-dash>
                  Statement of Rogelio G. Evangelista,
       President, Maui County Veterans Council, Wailuku, Maui, HI
                                       Maui County Veterans Council
                                                  Wailuku, Maui, HI
                                                      July 10, 2008

House Committee on Veterans Affairs
Attn: Ms. Orfa Torres

Dear Committee members:

    On March 31, 2008 the Maui County Veterans Council presented Dr. 
Richard MacDonald, Voc Rehab Counselor, with the ``President's Award'' 
for having significantly improved the quality of lives of more than 250 
of our most severely psychiatrically and physically disabled Vietnam, 
Korean and World War II veterans. Dr. MacDonald attributes these 
remarkable results to the close collaboration he has with our Maui CBOC 
treatment professionals and the unique and profound effectiveness of 
the Independent Living Program (ILP). In fact, the entire Maui CBOC 
healthcare staff, VA and veteran communities on Maui, Molokai and Lanai 
fully endorse and utilize the IL services provided by Dr. MacDonald. 
This is because, in addition to Clinic provided therapy and 
medications, these IL, services have been so effectively providing 
veterans the means they needed to better utilize their time, skills and 
interests to help and share with other people. In this way, the IL 
Program transforms these hard-to-reach veteran's lives, formerly 
characterized by profound depression, isolation, and lack of purpose, 
into active, meaningful and socially connected lives. These amazing 
results benefit the veterans, their families, communities, and the VA 
in terms of reduced treatment costs over time.
    Given this use of the Independent Living Program (ILP) services to 
these special needs veterans has been utilized far more extensively in 
Maui County than elsewhere, they have undergone several Site Surveys by 
VACO Vocational Rehabilitation and Employment (VR&E) staff, including 
the last one 2 months ago. Dr. MacDonald states that these surveys have 
resulted in better assurance that IL services are provided here within 
the scope, guidelines and intent of the Chapter 31 Program. However, 
these actions have also resulted in larger numbers of veterans awaiting 
these services. Nevertheless, Dr. MacDonald is doing the best he can to 
expedite these services.
    As noted, the Maui County Veterans Council is promoting this unique 
utilization of IL services for these special needs veterans because 
they have proven to be so critically effective and sustaining to them. 
However, given IL, services are need-based, there should be no cap on 
the number of veterans who receive them in a year. We also wish to note 
that Dr. MacDonald, as the sole provider of Chapter 31 services here, 
provides our veterans with VR&E employment services as well as IL 
services. Nonetheless, the demand for IL services here remains 
extraordinarily high because we have such a high percentage of older 
vets living here still suffering from PTSD who are applying and 
benefiting from these services.
    Lastly, even though we acknowledge our Nation's highest priority is 
to serve OIF/OEF veterans, we cannot ascribe a lesser priority to 
serving our older veterans especially knowing how essential these ILP 
services are in concert with VHA assistance to unlocking the potential 
of these special needs veterans to live out the remainder of their 
lives with a restored sense of purpose, family, social and community 
connection.
    Thank you all for what you do for Veterans. God Bless the United 
States of America and its Veterans.

            Respectfully submitted,

                                             Rogelio G. Evangelista
                                                          President

                                 <F-dash>
                  Statement of Marianne Talbot, Ph.D.,
  President, National Rehabilitation and Rediscovery Foundation, Inc.
          The Hope Project: An Independent Living Program for
                       Disabled Veterans with TBI
The Need
    Medical and neurosurgical techniques have improved since the 
seventies, resulting in a dramatic increase in the survival of persons 
diagnosed with traumatic brain injuries (TBI). It is estimated that 5.3 
million Americans currently live with long-term or permanent 
disabilities resulting from TBI (CDC, 1999; Thurman et al., 1999). The 
numbers have been increasing with the return of wounded soldiers from 
the conflicts in Iraq and Afghanistan. As of 2007, approximately 22 
percent of the more than 30,000 wounded soldiers from Iraq and 
Afghanistan have sustained a TBI (Stanford Medicine, 2007). The numbers 
continue to rise. The recently released RAND Corporation (2008) report 
on the Invisible Wounds of War: Summary and Recommendations for 
Addressing Psychological and Cognitive Injuries provides some sobering 
estimates on the number of deployed servicemembers who have sustained a 
TBI and are suffering from psychological issues such as post traumatic 
stress disorder (PTSD). Based on surveys, the total number could reach 
as many as 320,000 (Tanielian, et. al, 2008). TBI may co-occur with 
PTSD and/or traumatic amputation. The cognitive, physical, and 
psychosocial changes that occur in an individual post injury are 
profound, with lifelong and life altering disabling conditions (NIH, 
1999).
    The current standard of care following TBI has been first emergency 
medical care and stabilization followed by acute and post-acute 
rehabilitation with the ultimate goal of independent living. Although 
the optimal objective of rehabilitation is successful independent 
living through community re-integration, programs and services that 
support this transition are not part of the conventional standard of 
treatment. A significant gap exists with programs focusing on the 
transition from post-acute rehabilitation to independent community 
living.
    Community re-integration programs (CR) or independent living 
programs (IL) are crucial to the quality of life for disabled veterans 
and their families. These programs provide a vital role within the 
rehabilitation process. By promoting the transfer of skills learned 
during acute and post-acute rehabilitation, individuals learn how to 
apply and generalize those skills within the community through CR/IL 
programs.
    Successful CR/IL includes the following constructs to be present in 
one's life: independent living aspects (self care, daily routine, 
compensatory strategies); productivity/occupation (meaningful and 
productive focus); socialization and social supports (supportive 
network, leisure activities); and general integration factors (housing, 
community involvement and satisfaction with quality of life) (Karlovits 
& McColl, 1999).
    The next step is to develop a CR/IL prototype that will become part 
of the standard of care for disabled veterans to promote independence 
and self-sufficiency, thus successful community re-entry.
The Hope Project Overview
    The Hope Project, developed by the National Rehabilitation & 
Rediscovery Foundation (NRRF) in 2006, is a transitional community 
reintegration/independent living program designed to provide disabled 
veterans and their families with a comprehensive, community-integrated 
program to increase independence and self-sufficiency within a learning 
environment. This unique program focuses on the transition from post-
acute rehabilitation to long-term community living and incorporates the 
constructs that constitute successful independence and re-entry into 
the community. Improving the success of CR/IL for disabled veterans is 
essential to allow them to be productive members of their families, 
communities, and society.
    Through a series of six courses, taught over a 9 month period at 
Virginia Tech, Northern Virginia Center, individuals partake in classes 
to learn about lifespan issues related to the long-term needs post TBI, 
PTSD, and traumatic amputation. Family education and involvement is 
highly encouraged during this process. Two courses are offered each 
semester. The program includes the following curriculum:
Fall Semester
    Module I--self care, self reliance, and compensatory strategy 
development
    Module II--daily routine development
Spring Semester
    Module III--health, leisure education, and socialization
    Module IV--productive focus
Summer Semester
    Module V--support team development (family involvement/
participation)
    Module VI--practicum and mentoring opportunity
Program Impact

    <bullet>  The Hope Project has been documenting the vital 
importance of this prototype as part of the standard of care within TBI 
rehabilitation
    <bullet>  The Hope Project is advancing the high quality of 
treatment for disabled veterans with TBI and is documenting the 
program's efficacy
    <bullet>  The Hope Project will give rise to the development of a 
model CR/IL program that can be replicated within communities where 
disabled veterans reside augmenting and complementing the exceptional 
services that currently exist within the Department of Defense and the 
Department of Veterans Affairs

Partnerships and Adjunct Services
    Partnerships and adjunct services include Virginia Tech, Northern 
Virginia Center, Department of Marriage and Family Therapy to provide 
individual, couples, and family therapy services as well as a family 
support group and graduate level interns. Virginia Tech Department of 
Adult Learning is collaborating with NRRF to collect data regarding the 
efficacy of the program and to conduct the program evaluation. Virginia 
Tech is also providing classroom space as an in-kind contribution to 
ensure program success.
    NRRF collaborates and coordinates with multiple disciplines 
including academia, industry, military services, and the U.S. 
Department of Veterans Affairs. Partnerships with local industry are 
on-going for practicum and employment opportunities for participants at 
the completion of the program.
Program Director
    Marianne Talbot, Ph.D., is the Program Director and President of 
NRRF. Dr. Talbot earned her Ph.D. in Human Development from the 
Virginia Tech. She has a Master of Arts in Education and Human 
Development from the George Washington University in Washington, D.C., 
and a Bachelor of Arts from Eckerd College in St. Petersburg, Florida. 
She has national certifications as a Rehabilitation Counselor (CRC), 
Case Manager (CCM), Rehabilitation Provider (CRP), and Movement Analyst 
(CMA). During her master's level internship, Dr. Talbot worked at the 
National Institutes of Health (NIH) in the clinical neuropsychology 
section administering psychometric tests and collaborating with the 
neurosurgery section on research protocols. Dr. Talbot has 22 years of 
experience working in neuro-rehabilitation. Additionally, she serves on 
several boards and Committees and is President of the Northern Virginia 
Brain Injury Association.
References
    Centers for Disease Control and Prevention (CDC). (1999). Traumatic 
brain injury in the United States: A report to Congress.
    Karlovits, T. & McColl, M. (1999). Coming with community 
reintegration after severe brain injury: A description of stresses and 
coping strategies. Brain Injury, 13, 845-861.
    National Institutes of Health (NIH). (1999). Rehabilitation of 
persons with traumatic brain injury. Journal of American Medical 
Association, 282, 974-983.
    Final Report on the President's Commission on the Care for 
America's Wounded Warriors (July, 2007).
    Richter, R. (Summer, 2007). Fog of war: One soldier's struggle with 
Iraq's trademark injury. Stanford Medicine, 20-24.
    Tanielian, T, Jaycox, L.H., Schell, T.L., Marshall, G.N., Burnam, 
M.A., Eibner, C., Karney, B.R., Meredith, L.S., Ringel, J.S., & Vaina, 
M.E. (2008). Invisible wounds of war: Summary and recommendations for 
addressing psychological and cognitive injuries. RAND Corporation.
    Thurman, D., Alverson, C., Dunn, K., Guerrero, J., & Sniezek, J. 
(1999). Traumatic brain injury in the United States: A public health 
perspective. Journal of Head Trauma Rehabilitation, 14, 602-615.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                     Washington, DC
                                                      July 11, 2008

Ms. Ruth Fanning
Director
Vocational Rehabilitation and Employment Service
U.S. Department of Veterans Affairs
810 Vermont Avenue, N.W.
Washington, D.C. 20420

Dear Ms. Fanning:

    In reference to our House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity hearing on ``Independent Living 
Program'' on July 10, 2008, I would appreciate it if you could answer 
the enclosed hearing questions by no later then August 11, 2008.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-2034. If you have any questions, 
please call (202) 225-3608.

            Sincerely,

                                          Stephanie Herseth Sandlin
                                                         Chairwoman

                                 ______
                                 
                        Questions for the Record
                The Honorable Stephanie Herseth Sandlin
                               Chairwoman
                  Subcommittee on Economic Opportunity
                  House Committee on Veterans' Affairs
                             July 10, 2008
                       Independent Living Program
    Question 1: How many veterans were recommended by counselors for 
the Independent Living Program in fiscal year 2004, 2005, and 2006?

    Response: Data on the number of veterans with independent living 
(IL) plans are available from fiscal year (FY) 2005 forward. Tracking 
procedures were implemented at that time to track new plans against the 
2,500 cap. Total IL plans per year include cases that have been re-
evaluated for changes in plan or have been transitioned from an 
employment plan to a program of independent living services. Data for 
both new plans and total plans by year is as follows:



----------------------------------------------------------------------------------------------------------------
                       Fiscal Year                               New IL Plans               Total IL Plans
----------------------------------------------------------------------------------------------------------------
2004                                                             Data not available                       3,545
----------------------------------------------------------------------------------------------------------------
2005                                                                          2,588                       3,667
----------------------------------------------------------------------------------------------------------------
2006                                                                          2,213                       3,129
----------------------------------------------------------------------------------------------------------------


    Question 2: How often does the VA exceed the 24-month time in 
providing services to veterans?

    Response: From FY 2004 through FY 2006, 13 percent of independent 
living plans exceeded the 24-month timeframe. IL plans may be extended 
for an additional 6 months if circumstances require an extension. Such 
extensions require a second level managerial review and approval.

    Question 3: What is the average time for a response when a veteran 
calls the VA to check on the status of an application?

    Response: Vocational Rehabilitation and Employment (VR&E) does not 
track response time of routine inquires concerning status of claims. 
All Veterans Benefits Administration's (VBA) regional offices have toll 
free lines staffed with trained customer service personnel versed in 
all VBA benefits information. Phone counselors are trained to provide 
immediate feedback regarding the status of pending claims. If claims 
have not yet been logged into the regional office's computer 
information system, customer service operators are able to transfer 
calls to the appropriate VR&E office for status information. Regional 
office VR&E operations are staffed with personnel equipped to 
immediately research and provide status information.

    Question 4: When was the last time that the office Mr. McCartney 
dealt with was visited for quality assurance and how did the office 
rate?

    Response: The last VR&E quality assurance oversight survey of the 
Atlanta Regional Office was in June 2007. A rating is not provided as a 
part of the site visit protocol. Instead, offices are provided specific 
feedback regarding management and operational issues geared toward the 
improving the service provided. The Atlanta Regional Office quality 
oversight survey included three commendable findings and five action 
items. Overall, the survey identified no significant findings except 
the need for increased frequency of case management meetings.
    Results of the survey included commendations for:

    <bullet>  effective operational management,
    <bullet>  effective fiscal oversight,
    <bullet>  effective working partnerships with the employment 
community leading to increased job opportunities for veterans, and
    <bullet>  effective working relationships with the military leading 
to strong outreach with resulting early intervention for service 
connected disabled servicemembers exiting the military.

    Action items included:

    <bullet>  information technology (IT) enhancements to improve out-
based counselors' access to computer systems,
    <bullet>  consistency of data entry,
    <bullet>  consistently informing veterans in writing regarding 
entitlement determinations,
    <bullet>  consistency in using required worksheets for documenting 
evaluation and planning actions, and
    <bullet>  increased frequency of case management meetings.

    Question 5: What happens after the veteran is not part of the 
Independent Living Program and becomes unemployed once again and needs 
assistance? Can the veteran see a counselor or will the veteran need to 
reapply for the program once again?

    Response: Veterans who participate in total programs of independent 
living services include individuals who are so severely disabled that 
they could not feasibly be employed will not have been determined 
infeasible for employment due to the severity of disability conditions. 
However, as a part of an independent living program, veterans may 
obtain volunteer employment or part-time employment that is within 
their ability to perform. The optimal goal of the independent living 
program is to assist each veteran in overcoming his or her disabilities 
to the extent that they become feasible and can pursue services that 
result in gainful employment.

    A veteran who has been determined to be infeasible may reenter 
vocational rehabilitation services within 1 year without reapplying for 
services. Past the 1 year point, a veteran may also file an informal 
claim via telephone or letter. A VR&E counselor will contact him or her 
to discuss further assistance needed. Any time a veteran becomes 
unemployed after VR&E makes a rehabilitation determination or if the 
veteran discontinues participation in the VR&E program, he or she may 
reapply and a VR&E counselor will work with him or her to determine 
further rehabilitation needs leading to reemployment. Even if the 
veteran's delimiting date has passed, VR&E may provide employment 
services; if the veteran has a serious employment handicap, the 
delimiting period may be waived and the veteran may be provided 
whatever services are determined necessary to successful 
rehabilitation.

                                 <all>

</pre></body></html>
